<html>
<title> - VET CENTERS AND THE VETERANS HEALTH ADMINISTRATION: OPPORTUNITIES AND CHALLENGES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                  VET CENTERS AND THE VETERANS HEALTH 

                   ADMINISTRATION: OPPORTUNITIES AND 

                               CHALLENGES
=======================================================================



                             FIELD HEARING

                               before the

                         SUBCOMMITTEE ON HEALTH

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS


                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, APRIL 5, 2012

                   FIELD HEARING HELD IN MODESTO, CA

                               __________

                           Serial No. 112-55

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
73-776                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

                         SUBCOMMITTEE ON HEALTH

                 ANN MARIE BUERKLE, New York, Chairman

CLIFF STEARNS, Florida               MICHAEL H. MICHAUD, Maine, Ranking
GUS M. BILIRAKIS, Florida            CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              SILVESTRE REYES, Texas
DAN BENISHEK, Michigan               RUSS CARNAHAN, Missouri
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             April 5, 2012

                                                                   Page

Vet Centers and The Veterans Health Administration: Opportunities 
  and Challenges.................................................     1

                           OPENING STATEMENTS

Hon. Jeff Denham, Acting Chairman................................     1
    Prepared Statement of Hon. Jeff Denham.......................    38
Hon. Jerry McNerney..............................................     3
    Prepared Statement of Hon. Jerry McNerney....................    39

                               WITNESSES

Bruce Thiesen, Veteran, Fresno, CA...............................     5
    Prepared Statement of Mr. Thiesen............................    40
Ryan Lundeby, Veteran, Modesto, CA...............................     8
    Prepared Statement of Mr. Lundeby............................    42
Phillip White, Veteran, Modesto, CA..............................     9
    Prepared Statement of Mr. White..............................    43
Chris Lambert, Veteran, Citrus Heights, CA.......................    12
    Prepared Statement of Mr. Lambert............................    44
Carolyn S. Hebenstreich, Veterans Service Officer, Stanislaus 
  County Department of Veterans Affairs..........................    22
    Prepared Statement of Ms. Hebenstreich.......................    44
Ron Green, Service Officer, San Joaquin County...................    23
    Prepared Statement of Mr. Green..............................    45
Roger Duke, Readjustment Counseling Therapist, Modesto Vet 
  Center, Veterans Health Administration, U.S. Department of 
  Veterans Affairs...............................................    24
    Prepared Statement of Mr. Duke...............................    46
Randall Reyes, Outreach Coordinator, Modesto Vet Center, Veterans 
  Health Administration, U.S. Department of Veterans Affairs.....    27
    Prepared Statement of Mr. Reyes..............................    48
Lisa Freeman, Director, VA Palo Alto Health Care System, Veterans 
  Health Administration, U.S. Department of Veterans Affairs.....    28
    Prepared Statement of Ms. Freeman............................    49

                        STATEMENT FOR THE RECORD

Veterans Health Administration Central Office....................    51


 VET CENTERS AND THE VETERANS HEALTH ADMINISTRATION: OPPORTUNITIES AND 
                               CHALLENGES

                              ----------                              


                        THURSDAY, APRIL 5, 2012

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                    Subcommittee on Health,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:24 p.m., at 
the American Legion Hall, 1001 South Santa Cruz Avenue, 
Modesto, California, Hon. Jeff Denham, a Member of the 
Committee presiding.
    Present: Representatives Denham and McNerney.

             OPENING STATEMENT OF HON JEFF DENHAM, 
                        ACTING CHAIRMAN

    Mr. Denham. Thank you, Commander. The House Committee on 
Veterans Affairs Subcommittee on Health will come to order.
    Good afternoon and thank you for being here today. It's 
certainly good to be home and have great weather here. Before 
we begin, I'd like to read a short statement from my friend and 
colleague Ann Marie Buerkle from Syracuse, New York. She's the 
Chairwoman on the Subcommittee on Health and she intended to be 
here today, but unfortunately, because of a personal family 
medical situation, she had to cancel at the last minute. Her 
statement reads: ``I sincerely regret that I'm unable to be 
with you and my colleagues Jeff and Jerry this afternoon to 
discuss the importance of Vet Centers and learn more about how 
they are being used and ways in which services can be improved.
    ``Vet Centers are a vital homefront support system for our 
veterans and their families; a place where they can connect 
with their peers and give voice to their concerns as they go 
about the business of making a successful transition to 
community life.
    ``Your Congressman Jeff Denham is a valuable asset for 
veterans of the California Central Valley and across the 
country. It's an honor for me to sit alongside him on the 
Subcommittee on Health. I look forward to hearing from him 
about your discussion today and how we can best work together 
to insure a better future for America's veterans and their 
families.
    I wish all in attendance today the best and appreciate your 
taking the time to come. To all those who served our Nation in 
uniform I thank you for your brave and loyal service to our 
country.''
    Though I wish the Chairwoman could be here with us in 
Modesto today, I'm proud to be joined by fellow Committee 
Member, and fellow California, Congressman McNerney. Mr. 
McNerney represents our neighbors in the nearby 11th District 
and I'm glad he's able to be here to share in our discussion 
this afternoon.
    Most importantly, I'm delighted that you're all here, It's 
an immense honor to represent you and all the citizens of 
California's 19th District. I'm grateful you took the time out 
of your busy schedules to meet with us today and bring Congress 
actually home here to Modesto.
    I was proud to serve in the United States Air Force both on 
active-duty and as a member of the Air Force Reserves for 16 
years. During that time, some of which I spent in combat in 
Desert Storm and Somalia, I became intimately familiar with the 
service and sacrifices of those who volunteered to serve our 
Nation in battle. And the tremendous respect I have for my 
fellow veterans is something I have carried with me since my 
own days in uniform.
    Last October I once again returned to the combat theater, 
this time as a Member of the Congressional delegation to 
Afghanistan. In the next two years, several hundred thousand of 
our servicemembers will return home from overseas. And what I 
saw on that trip makes it clear more than ever we must be 
vigilant about safeguarding the health and mental well-being of 
our servicemembers and veterans. In that endeavor we have 
perhaps no greater tool than VA Vet Centers.
    The Vet Center program was established in 1979 to help 
Vietnam veterans who faced a Department of Veterans Affairs 
that was in many ways unprepared to respond to their transition 
needs. For these veterans and for those of every conflict 
since, Vet Centers have provided confidential, community-based 
readjustment counseling and referral services with an emphasis 
on peer-to-peer interaction. Free from the necessarily more 
bureaucratic structure of other VA programs and services, the 
Vet Centers have helped many who have otherwise fallen through 
the cracks.
    As your representative, I've heard time and time again from 
veterans of families in our community about the important work 
being done in Central Valley's Vet Centers. We will hear from 
four such veterans today. We will also hear from individuals 
who worked at the local VA Vet Centers, VA Medical Centers, and 
County Veteran Service Officers. They work day-in and day-out 
to provide our veteran neighbors and their families with the 
supportive services they need to live healthy and productive 
lives.
    Last fall I introduced H.R. 3245, the Efficient Service for 
Veterans Act, a bill to streamline the bureaucratic process for 
veterans of Vet Centers by allowing Vet Centers access to 
electronic records of servicemen and women. This legislation 
will be a focus of a Subcommittee on Health legislative hearing 
when Congress returns from recess on April 16th.
    Today, we will discuss the services provided to our 
veterans and families in Vet Centers including recent 
initiatives to expand services to active-duty servicemembers 
and the immediate family of returning veterans. We will also 
evaluate the role of such centers within the larger VA health 
care center.
    A field hearing is a chance for the Subcommittee to really 
hear and understand the reality of the situation on the ground 
and for that purpose I could not be more pleased with the 
witnesses that have agreed to testify here today. Both the 
veterans and the professional staff on these two panels have 
insights across the spectrum of the VA and Vet Center program 
and I look forward to their testimony.
    Before I yield to Mr. McNerney for his opening statement, 
I'd like to take a moment to recognize all the veterans in the 
room with us today.
    [Applause.]
    Mr. Denham. Thank you for your service.
    Again, I thank you all for joining us here this afternoon. 
Now I'd like to recognize Mr. McNerney for any opening remarks 
he may have.

    [The prepared statement of Hon. Jeff Denham, Acting 
Chairman appears in the Appendix]

            OPENING STATEMENT OF HON. JERRY McNERNEY

    Mr. McNerney. Thank you, Mr. Denham. I'd also like to thank 
you for serving our great country. You said it was 16 years. 
That deserves a lot of praise. Also, thank you for serving with 
me on the Veterans Committee.
    You may not realize it, but the Department of Veteran's 
Affairs is the second largest department in Washington and the 
work of the Veterans Committee is very important in terms of 
providing services for our veterans, making sure the VA is 
doing what it's been tasked to do, and making sure that the 
money is well spent. It's good work and I appreciate the 
service of my colleague Mr. Denham.
    I want to thank the American Legion Post 74 for hosting 
this event today.
    I also want to thank our witnesses for coming today. It's 
not easy to come in front of a Congressional Committee, so 
thank you for your sacrifice as soldiers and for your sacrifice 
today personally.
    I know the issues pertinent to health care and benefits at 
the Department of Veterans Affairs are of utmost importance to 
you as they are to all of us.
    On a personal note, as Ranking Member of the Subcommittee 
on Disability Assistance Memorial Affairs--which has oversight 
over VA's compensation, pension, and other benefits--it's a 
special privilege for me to participate in this hearing so 
close to my home and to our homes. It's an honor to be able to 
address the issues facing veterans in the Central Valley and 
across the country, and I'm glad the Committee is hearing 
directly from veterans and service officers in our area. When 
I'm home in California, I frequently hear about the 
difficulties many veterans experience when transitioning to 
civilian life.
    Today we are here to discuss the Vet Centers. The benefits 
that they have provided to our veterans and the important and 
growing role they will have in helping veterans who are 
recently returning from service. These centers provide an 
alternative environment outside of the regular VA systems for a 
broad range of counselling, outreach and referral services. 
Most importantly, Vet Centers provide an environment in which 
veterans can speak openly to other veterans about their 
experiences.
    There are approximately 300 Vet Centers across the country. 
We are here today to determine how Vet Centers can continue to 
fulfill their unique and critical role within the VA continuum 
of care with a specific focus on readjustment counselling 
services provided at these facilities.
    Vet Centers have expanded the services offered and as a 
result their workload continues to increase. This trend will 
likely persist as returning servicemembers, veterans and their 
families deal with everything from mild readjustment issues to 
serious health and mental health challenges.
    Mental health care is at the forefront of our agenda and 
for good reason. Of the veterans from recent conflicts who have 
had access to VA health care, more than 50 percent have 
displayed mental health issues, including post-traumatic 
stress, substance abuse and mood disorders. Veterans' mental 
health conditions not only affect them, but also have a 
significant impact on their families. The VA has made some 
progress addressing the mental health needs of returning 
heroes, but far more needs to be done especially for their 
families.
    A bill that I supported last Congress, the Caregivers and 
Veterans Omnibus Health Services Act, required the VA to 
establish a program to provide mental health services and 
readjustment counselling to veterans, their families, as well 
as the members of the National Guard and Reserve.
    I've been concerned that the VA has not made sufficient 
progress in implementing these provisions. I'm working with a 
bipartisan group of my colleagues on this Committee to make 
sure that the VA is meeting its obligations under the law. I 
will continue fighting for implementation of this program so 
that the needs of our Nation's veterans are met. Each 
generation of veterans has its own unique challenges. It is 
important that Vet Centers are prepared to meet the needs of 
our new veterans and their families while still caring for 
those from previous conflicts.
    I look forward to hearing from our witnesses on, first of 
all, how we can maintain and improve services provided by the 
Vet Centers; progress being made for full implementation of the 
Caregivers and Veterans Omnibus Health Services Act; if we have 
appropriate facilities and staffing; what role other resources 
within our communities should play to help veterans and improve 
care; and what we should do to strengthen the invaluable peer-
to-peer group counselling available through Vet Centers.
    We must all work together to ensure our veterans receive 
the care they deserve. One veteran falling through the crack is 
too many and we've seen too many fall through the cracks.
    I'm glad the Committee is here today to learn about the 
specific issues affecting veterans in the San Joaquin Valley.
    I'd like to thank everybody for attending today. This is a 
great turn out. It shows the community is interested in 
veterans affairs and engaged and this is exactly what we need 
to see.
    Thank you, Mr. Denham. I yield back.

    [The prepared statement of Hon. Jerry McNerney appears in 
the Appendix]

    Mr. Denham. I would agree we all need to work together and 
we are. And in that same vein not only Members of Congress, but 
certainly Federal and state government and I do want to 
recognize that while this is a congressional hearing, there are 
staff Members for Senator Berryhill--Assembly Member Berryhill 
and Assembly Member Olsen in attendance. We appreciate you 
being here today as well.
    Now I'd like to invite our first panel to the witness 
table. With us today is Mr. Bruce Thiesen, the past National 
Commander of the American Legion Parliament of California.
    Also joining us is Mr. Chris Lambert from Citrus Heights. 
Mr. Lambert is a Marine veteran of the Vietnam War and three-
time recipient of the Purple Heart.
    Mr. Ryan Lundeby, is a U.S. Army Ranger and Purple Heart 
recipient who served six tours in Iraqi Freedom.
    And Mr. Phillip White, a Marine wounded warrior and a 
veteran of Iraqi Freedom. Both from right here in Modesto.
    Mr. Denham. Gentlemen, I am so grateful to each of you for 
taking time out of your busy lives to be here with us this 
afternoon to share your stories and expertise. And most 
importantly, for your honorable service to our Nation in 
uniform. It's an honor to have you testify before our 
Subcommittee today. I'm looking forward to all of your comments 
and, Bruce, if you'll start.

STATEMENTS OF BRUCE THIESEN, VETERAN, FRESNO, CALIFORNIA; RYAN 
LUNDEBY, VETERAN, MODESTO, CA; PHILLIP WHITE, VETERAN, MODESTO, 
    CALIFORNIA; AND CHRIS LAMBERT, VETERAN, CITRUS HEIGHTS, 
                           CALIFORNIA

                   STATEMENT OF BRUCE THIESEN

    Mr. Thiesen. Thank you, Congressman McNerney and 
Congressman Denham.
    It gives me great pleasure to be here to represent the 
American Legion and the Subcommittee as well. The American 
Legion's views on the Department of Veterans Affairs 
readjustment counselling service.
    From 1969 to 1979 congressional hearings were held which 
identified the presence of readjustment difficulties in some 
veterans returning from duty during the Vietnam era. In 1979 
Congress passed legislation that required the Department of 
Veterans Affairs to provide readjustment counselling to 
eligible combat veterans.
    In response to this legislation the Department of Veterans 
Affairs Health Administration established a nationwide system 
of community-based programs separate from the Veterans Affairs 
Medical Centers. The separation was based partially on the 
premise that many Vietnam era veterans were so distrustful and 
suspicious of government institutions that they would not go to 
a Veteran's Administration Medical Center for care.
    In 1981 the Veterans Health Administration initiated the 
new organizational element, the readjustment counselling 
service, to administer the Vet Centers and the provisions of 
readjustment counselling.
    In April of 1991, in response to the Persian Gulf War, 
Congress extended the eligibility to veterans who served during 
other periods of armed hostilities after the Vietnam era.
    On April 1st, 2003, the Secretary of Veterans Affairs 
extended eligibility for Vet Center services to veterans of 
Operation Enduring Freedom, and on June 25th, 2003, to veterans 
of Operation Iraqi Freedom and subsequent operations within the 
Global War on Terrorism. Family members of all veterans are 
eligible for Vet Center counselling, including marriage and 
family counselling.
    On August 5th, 2003, the Secretary of Veterans Affairs 
authorized Vet Centers to furnish bereavement counselling 
services to surviving parents, spouses, children and siblings 
of servicemembers who had been killed while serving on active-
duty, including federally activated Reserve and National Guard 
personnel.
    Vet Centers assist war-zone veterans and their families 
through various services, including psychological counselling 
and psychotherapy, individually and in groups; screening and 
treatment for post-traumatic stress disorder, commonly known as 
PTSD; substance abuse screening and counselling; employment and 
education counselling; bereavement counselling; military sexual 
trauma, MST counselling; marital and family counselling; 
referrals through the VA benefits, community agencies and 
substance abuse.
    Over 40,000 veterans were counseled for PTSD at Vet Centers 
and approximately 4,000 clients were seen for other clinical 
issues, according to the Office of Health Information and 
information request results.
    Readjustment counselling services offered at Vet Centers 
are not part of the VA medical benefits. Meaning they don't 
have to apply for benefits to receive services at a Vet Center. 
To be eligible for readjustment services you must have the 
qualifying periods and combat theaters including: World War II, 
the three eligible categories are European, African, Middle 
Eastern Campaign Medal from December 7th, '41 to November 8th, 
1945; Asiatic Pacific Campaign Medal from December 7th, 1941 to 
March 2nd, 1946; the American Campaign Medal, December 7th, 
1941 to March 2nd, 1946; American Merchant Marines in 
oceangoing service during the period of armed conflicts; Korean 
War, June 27th, 1950 to July 27th, 1954, (eligible for Korean 
Service Medal); Vietnam War, February 28th, 1961 to May 7th, 
1975; Lebanon, August 25th, 1982 to February 26th, 1984; 
Grenada, October 23rd, 1983 to November 21st, 1983; Panama, 
December 20th, 1989 to January 31st, 1990; Persian Gulf, August 
2nd, 1990 to a date yet to be determined; Somalia, September 
17th, 1992 to a date yet to be determined; Operation Joint 
Endeavor, Operation Joint Guard and Operation Joint Forces; 
Global War on Terrorism--veterans who serve or have served in 
the military expeditions to September 11th, 2001, and before a 
date yet to be determined, campaigns include Operation Enduring 
Freedom and Operation Iraqi Freedom.
    Family members may receive bereavement service if a loved 
one died in the line of duty, though the death need not be 
combat related. Service may have been in peacetime or wartime. 
Family members of persons who died while in Reserve or National 
Guard training also qualify.
    As part of the January 3rd, 2011, Department of Defense 
Integrated Mental Health Strategy, eligibility will be expanded 
to include active-duty servicemembers who served in Operation 
Enduring Iraqi Freedom, including members of the National Guard 
and Reserve who were on active-duty for readjustment 
counselling and other services through readjustment counselling 
services. The VA's Mobile Vet Center program expansion to 
increase access for active-duty servicemembers, National Guard 
and Reserve member families and veterans in rural areas who are 
geographically distant from existing programs.
    The concerns, initially Vet Centers allowed veterans to 
receive peer-to-peer counselling--as you stated in the opening 
remarks, Congressman Denham--counselling from readjustment 
counselors who offered personal experiences, giving the 
counselors the ability to relate to the veterans' daily 
struggles. However, as time passed, many Vet Centers were 
unable to keep up with the increased amount of clients and were 
unable to hire strictly veterans counselors. An emphasis should 
be placed on hiring Operation Enduring Freedom and Operation 
Iraqi Freedom and Operation New Dawn veterans.
    According to the 2009 American Legion System Worth Saving 
report on Vet Centers, there is a growing need for increased 
funds within the Vet Center to address staffing and facility 
needs. Many rural areas have Vet Centers serving as many as 23 
counties due to the large geographical areas they serve.
    Vet Centers currently offer counselling services for 
military sexual trauma for male and female veterans. However, 
it is not noted in any of the VA literature that veterans may 
receive counselling for military sexual trauma if it's not 
incurred in a combat zone.
    Recommendations: The American Legion recommends that the VA 
expand its Vet Centers to the most rural areas to address the 
access of care and concerns of veterans living in the most 
rural areas. The American Legion also recommends that the VA 
allow compensation benefits. Information to be disseminated to 
all transition and access points to include Vet Centers so that 
all veterans are aware of all benefits that they may be 
eligible for. Funds should be directed towards more holistic 
treatments for those veterans who are counseled for PTSD to 
include Yoga and horseback riding. The VA should update its 
literature to include information directing male and female 
veterans who are victims of military sexual trauma that 
counselling services are available even if the incident did not 
occur in a combat zone.
    Mr. Denham. Mr. Thiesen, I want to ask you to wrap it up so 
we can include all of our witnesses. I'll just remind all 
witnesses that your written testimony will be included in the 
Congressional Record for all the Veterans Committee when we get 
back to D.C.
    Mr. Thiesen. The VA should recognize how precious an asset 
combat veterans are to the Vet Centers, especially those who 
successfully managed--that successfully managed their PTSD and 
are willing to share their experience with other veterans. The 
VA should establish a training program that recognizes this 
experience as being equivalent and transferrable for those 
veterans seeking a required education to become a peer-to-peer 
readjustment counselor.
    The American Legion recommends that readjustment 
counselling services conduct a needs assessment to ensure 
proper staffing (psychiatrist and psychologist, licensed 
medical and social workers and ancillary staff).
    I do feel that these Vet Centers are a necessity in 
counties like we serve here, like one Vet Center probably in 
the Modesto area, in many mountain areas--there are residents 
in the mountains. As Secretary of Veterans Affairs in the State 
of California, we held a stand down in Grass Valley. The first 
one that was ever held. Out of 105 veterans that served that 
came in, because this was a local and isolated area out of the 
hills of the mountain country, 95 percent of those veterans had 
never had any VA medical care at all and were brought in and 
qualified for eligibility in a VA Medical Center. It shows how 
drastically we need Vet Centers in all the rural areas to serve 
the many veterans in the state, not only in the State of 
California, but across this country.
    Thank you and I'll take questions later.

    [The prepared statement of Mr. Theisen appears in the 
Appendix]

    Mr. Denham. Thank you.

                   STATEMENT OF RYAN LUNDEBY

    Mr. Lundeby. Sir, I got a Purple Heart. My name is Ryan. I 
served in the Army Reserve National Guard. Finally found a home 
on active-duty as an Airborne Ranger. I was with C-Co, Charlie 
Company, 3rd Ranger Battalion 75th Ranger Regiment as far as 
special operations. I served in Iraq, Afghanistan, got out of 
the military in a hurry just as quick as I got into it. I had a 
great time.
    I had found out about the Vet Center through my good friend 
Randall Reyes, a student here. When I got out of the Army I 
didn't know anything about the Vet Centers. I had no idea what 
my benefits were. No one really took the four days to tell me 
what it was. It was just kind of like pushing you through the 
door like a rotary door.
    What's great about the Vet Center is all it took was my DE 
314, your combat vet. They took me in. I wasn't married at the 
time. Although my wife and I had been together dating, living 
together for three years, we were seen for marital counselling 
because I had problems communicating. Little fights turned into 
big fights. I was blowing up at every awesome thing like that.
    With counselling now I can communicate with smaller 
problems that de-escalate situations and don't turn into such a 
big deal. If it wasn't for the Vet Center I don't think I would 
be as happily married to my best friend today.
    Another big thing, the most common correlation on suicides 
is that the victim feels alone, isolated, and that's why I 
think Vet Centers can come in with knowing that it's purely 
confidential or no servicemember is going to go and seek help. 
Once they get to that point where they know they want to end 
their life, they don't think it's worth going to because they 
are afraid of chain of command coming down on him and not being 
confidential. That's the big advantage the Vet Center has is 
that they can see active-duty military and it's completely 
confidential and so hopefully they find a friend and find 
somebody to help them out.
    We're losing too many vets. Over 58,000 servicemembers 
beyond Vietnam, I'm sure times two committed suicide after 
getting home. What is more, less than one percent of 
Americans--less than one percent of Americans serve in the 
military and about one percent of those people serve in combat, 
so we're talking a tenth of a percent of citizens have served 
to defend our freedoms and I don't get it how other people say 
health care costs so much. We can't be spending that money.
    I risked my life, five deployments. I said send me, I'll 
go. I'll do it. Went to Iraq three times. Went to Afghanistan 
twice. And I wasn't the norm for my unit. That's about all I 
can talk about in the military because the stuff is still 
classified.
    The burden of our society rests on such few shoulders and 
who are we to say that we're not going to turn people away. 
We're not going to have Vet Centers open. So I just really hope 
with your help that we can go off Mr. Thiesen, off what he said 
about not enough servicemembers getting help, being aware of 
the Vet Centers out there, and what they can do for me. If it 
wasn't for my friend Randall Reyes bumping into me, being the 
outreach counselor he is, pulling me into the Vet Center saying 
let's hang out. I would never known, one, they existed; two, 
what services they offered; and three, I definitely wouldn't be 
happily married today with my best friend Mary who is here 
today. It's just a great thing. I'm really happy that I could 
receive help from the Vet Center.
    Thank you for having me here today.

    [The prepared statement of Mr. Lundeby appears in the 
Appendix]

    Mr. Denham. Thank you, Mr. Lundeby.
    Mr. White.

                   STATEMENT OF PHILLIP WHITE

    Mr. White. First, I would like to thank my wife who is 
sitting next to his best friend and my father's here for 
support as well. There's a few people in the crowd, Carol 
Hebenstreich. She's a big part of getting my life back. And 
Derrick McDaniels (phonetic) who is somewhere out there. He's 
one of my heroes as well.
    I got a chance to meet Mr. Lambert and Mr. Lundeby and I 
haven't had a chance to meet Mr. Thiesen. These guys are my 
heroes, what they've had to go through to get here. I'll try to 
read this and make it as quick as possible. I have read it 
because of the emotions that will go through me as I talk about 
my experience with the Vet Centers and the VHA.
    Thanks to the Chairwoman and Congressman for the 
invitation. I'm here today to talk about how we can better 
veterans benefits. Not to argue politics, the fine panel in 
front of me was elected to do so by the people. Today the media 
and many other issues of the day are surrounded in pettiness. 
We owe a debt to the men and women who gave some and especially 
those that gave all. To start to pay that debt, it's time we 
take arguments to a place of relevance. I'm proud to say 
Veterans is one of those places as well as Social Security, 
Medicare and the freedom of speech.
    We are seeing veterans and active-duty under tremendous 
strain. This can be evidenced by the growing unemployment and 
homelessness among our vets. Not too long ago in Afghanistan, 
staff Sergeant Bales acted unmercifully in a way that could 
only be described as a travesty. My family's prayers are with 
all the Afghanistan people and the family of Mr. Bales. 
Unfortunately, incidents like these--I'm sorry, incidents like 
these should not be fuel for having to be punished. Rather it 
should be an eye-opening moment that Congress should do more to 
lessen the burden off of our vets. There are more veterans than 
just active-duty that are acting out in these ways. There are 
veterans who have succumbed to the trauma and acted violently. 
As a Nation we must do more to help veterans who are facing 
these traumas.
    The first thing vets have been telling me when I ask them 
how do we fix this, veterans on the GI Bill have lost their 
break pay and had it taken from them. This is where in between 
waiting semesters they lose their lifeline and money. To triple 
the trauma of these heroes, the economy is in the gutter. 
Veteran unemployment is two to three times the level of normal 
unemployment depending on areas. This loss of income is putting 
terrible strain on the families lives of vets. Taking what 
should be a safe haven called home and turning it into a 
conducive environment of failure. Vet Centers do a great job of 
raising awareness, how to manage the strain within the home. 
There is only so much that can be done with counselling and at 
this point it is on Congress to do the right thing and restore 
what was taken. After all, this is what we had paid into.
    Upon returning from Iraq in 2003, I was given 90 days to 
get out of the military or resign a contract. The shame I felt 
from my time overseas, I knew four more years was not an option 
for me. My DD214 did not have my OIF/OEF, my Iraq campaign, on 
it. This was because the person in charge did not see a need 
for it. I tried to get them to change it and they said they 
would have to extend my contract to do it.
    Another cause for concern is they asked if I was having 
difficulty sleeping or adjusting back. My answer was simply 
yes. Once again, they said they would have to put me on medical 
hold. I had so much shame that I did not want to stick around 
the Marine Corps and have my head messed with, so I changed my 
mind immediately and told them I was fine and the DD214 did not 
matter and left.
    This is a perfect example why our combat should be screened 
on the way out by an independent agency. This could be a 
perfect fit for the mission of the Vet Centers across America. 
The Vet Centers could be a crucial factor in having success in 
the transition. They could identify problems and conduct 
follow-up at their local Vet Centers once the veterans reach a 
final destination called home. This would be--this would help 
the veteran identify where he or she could go in time of need 
and highlight what the government does well and increasing the 
resource--an increase of resources in this department is a 
must, to filter through the weekly reports and logistically 
process every veteran resource will be the key.
    I'll be done with this real soon.
    My experience with the local Vet Center is that they are 
masters with doing a whole lot with very little. They 
accomplish this mission with great relationships with programs 
such as Rivers of Recovery, Boots and Saddles, and many more. I 
myself have been part of Rivers of Recovery and spent a day 
with Boots and Saddles. ROR has an outstanding mission that can 
have a life-altering experience. Dan Cook, the founder, is a 
different kind of human being. His compassion towards vets is 
hard to match. My first day on the river he had just been given 
a new fly rod that was designed for fishing with one arm. He 
spent the whole day using his teeth and one arm. The other was 
behind his back, literally. I asked Dan, ``Why the one arm?'' 
His response was a typical Dan response, ``Not all combat vets 
have two.'' The cost of this experience is pretty close to 
nothing. The veteran only needs to provide a ride to the 
airport.
    This is another thing that the Vet Center can take 
ownership of with the proper resources. Many returning and 
older vets have many disabilities that do not give them the 
ability to drive. Transportation to events would open the door 
for all vets to discover that they are not alone and people 
care.
    The Vet Center and ROR have forged a great relationship and 
without the Vet Center I do not know if ROR would be a great 
part of my life today.
    The restrictions on the Vet Centers should be eased. The 
mobile Vet Centers should be reinstated in full, swag and all. 
Recreational therapy should be funded and pushed through the 
Vet Centers. Access to the VHA system has too many avenues. 
This would be a great thing, but they do not communicate. There 
are too many ill-prepared avenues. This should be an easy, 
painless process that takes minutes. Veterans are experiencing 
wait times as long as seven months.
    The VA is currently expanding in Stockton which is a head 
scratcher because we cannot fully staff what we have now. There 
needs to be a committee that can explore, discuss, and reveal 
where this process can be fixed and streamlined. The experience 
that you receive at a VA hospital or Vet Center right now is 
sub par at best. It's time we take every dollar spent and make 
it effective. This will also allow a reality check to see if 
the increase is necessary. At the very least it will help us 
identify the issues to make sure that every veteran has a 
chance of success upon his return from combat or service life 
today. Also the income restrictions will stop veterans from 
getting their care they deserve.
    And to wrap it up, today's environment is a fiscal mess and 
it's unprecedented. I do not have the answers of how to 
accomplish all the increases and I will leave that to you. I 
can say it's easier to get on welfare than it is to get 
veterans benefits. This seems backwards, but obviously I am 
biased in my opinion. I can only say that I'm grateful for 
everything that I have. The veterans that are returning now are 
in grave trouble. The same system is in place with two, 
possibly three times the veterans, so I thank you for your time 
and look forward to future talks and the questions.
    Thank you.

    [The prepared statement of Mr. White appears in the 
Appendix]

    Mr. Denham. Thank you, Mr. White.

                   STATEMENT OF CHRIS LAMBERT

    Mr. Lambert. Congressman, if you guys don't think I'm not 
going to say my wife is my best friend, she is right behind me, 
too. You don't know that Vietnam vets have three wives.
    Congressman, Chris Lambert. Hopefully I'll be able to--you 
know, if America could see the life, you two gentlemen's lives, 
and the sacrifices you make on airplanes going back to D.C. and 
living out of suitcases and how often you really see your 
friends and family, they'd have probably a different opinion of 
that job. You have to vote on one of those votes, that there's 
no right or wrong, you have to take the lesser of two evils.
    Hopefully when I finish--I don't want to see that red 
light. When I finish you'll have an idea of what the veteran 
goes through. Something that was--I'm also the son of a combat 
wounded Marine. I watched my dad spend 40 years wrenching in 
pain and when he died, he really died for the war. And he died 
with the quality of life that he didn't have to sacrifice.
    When I was told I was going to be on this panel, I asked 
the VA if I could take some pictures to show the trip, how 
difficult it is to navigate that system over there and the 
first person in public relations said yes, no problem. The 
other thing I hear, you can't do that.
    The VA system is a great system. I'm not here to knock any 
system. I'm just saying as a combat vet when you've got PTSD 
that place is terrible for some of vets, and I've got a guy 
behind me that spent 13 months in the hospital getting an 
amputation, just the smell of alcohol triggers some stuff in 
Baghdad that he doesn't need to have triggered.
    So when they wouldn't tell me how hard it is to get to the 
VA, I want to tell you exactly what happens. You walk through 
the Veteran's Administration at Mather. I volunteer there three 
days a week in the chaplain's office. If you're there after 
8:30, you're not going to get a parking place. They are trying 
to rectify that. Right now it's a mess.
    To be a vet walking in you approximately will cover eight 
football fields. You'll go down 10 breezeways. You'll be in 
five hospital hallways, two trailers, two ramps. You'll make 
fifteen 90-degree turns and then you'll get to a building that 
has big signs that says ``mental health.'' In fact, I saw a 
DAV--Jaime's (phonetic) here from DAV. If I sent you to his 
office, I would tell you to go around the cafeteria, go to the 
dipsy dumpster that looks like you're done, turn left and go 
about 15, 16 yards up a ramp and then turn. It's absolutely 
crazy.
    When you get to the window, unless you're 51/50 triaged, 
the best shot you've got is about 35 days out. Two years ago 
when I had the golf cart in the garage and Bud Light was a 
great handicap, finally after all these years the war started 
tearing me up. I did exactly what my dad did. I sat in the 
chair and I didn't shave. I didn't move. And my wife took me to 
the VA. When I walked in they said three weeks. At 60 years old 
one of the best salesmen you'll ever meet said, okay, and I 
walked away. Then she got tough. She got up and said, ``He's 
seeing somebody today, now.'' Since then I've done a lot of 
work. I've been sober 31 years so I'm pretty familiar with that 
system.
    I brought a board that I use now with the younger vets 
that's over there. We don't have time to cover it all now. That 
shows a 17-year-old class president. Less than a year later 
he's killed more people than you ever want to see die. He's 
been wounded three times. If somebody doesn't--wants to know 
what a vet goes through, and the pain, that the Vet Centers can 
provide for us because they get it from us. You've got a couple 
of those, Dr. Keenan and Lovely (phonetics) at Citrus Heights 
that I've done my work with, they can walk point for me any 
time. You've got Al Lawson and his crew, some of the Ph.D.'s 
later. They hear what we need and this is medicine. It isn't 
pills. It's my soul. It's my heart.
    The biggest pain that I can tell you about on December--
excuse me, on March 31st, 1968, what was left of (inaudible). 
There were 45 Marines, 12 Army. When they dropped it off, we 
thought they were really in (inaudible) they were going to give 
us a break. Our outfit was wiped out in the city just a few 
months before. We thought it was really neat. Man, there's a 
river we can swim in. They gave us plenty of food and my 
platoon sergeant said they are carrying too much ammo, 
something is wrong. For the first time--I can appreciate this. 
For the first time in my life in Vietnam I took my boots off 
because I had jungle rot. That night we got hit with--I walked 
point all the time I was there and I was proud of it. When I 
woke up to put my boots on, somebody else was in my place. He 
took two steps and got blown completely apart. The same round 
took out the rest of my fighting team. They were inside a wire. 
And we had to keep fighting and some of us were hit again, but 
when I got home it wasn't the men I killed. It was the guy that 
died in my place that didn't--and without these Vet Centers 
where we're not treated like a second class citizen, we'll have 
a lot of hope for these guys are doing multiple tours.
    The kid I was talking about, Anthony Cheek. I rode down to 
the wounded warriors session with him. I was in the truck he 
was traveling in, in a big truck down on the freeway, two miles 
down the road and immediately he made a lane change and scared 
the dog side out of me. A little bit farther down the road 
there was a brown paper bag beside the road and another vicious 
lane change. He says a lot of things are going on in this world 
we don't know how to even deal with.
    This DSM-IV--I was given this yesterday. There's not one 
thing in this book they use at the VA to diagnosis what our 
problem is. Right now you're dealing with a 12-week cookie 
cutter. The therapy session was actually made for women going 
through trauma. The paperwork wasn't changed for the vets. 
There's nothing in here about killing. My whole statement is 
that at the Vet Centers the men and the women that run them 
listen to our needs. They provide a safe place for our pain and 
then they hear and change their treatment modalities. There is 
a group of men whose therapy was over 10 years ago at Citrus 
Heights. They still meet weekly for breakfast. We will have a 
team. We died for each other.
    Thank you, Congressmen. We'll find a way to provide an 
empire and a staff to work at something that in Washington that 
says they are going to fix us in 12 weeks, then we have a 
chance.
    Thank you.

    [The prepared statement of Mr. Lambert appears in the 
Appendix]

    Mr. Denham. I want to thank you all for your testimony 
today. I know that many of these things are not easy to talk 
about, but talking about them is what's going to help us to fix 
the problem.
    Let me start with Mr. White.
    How did you first find the Vet Center? Walk me through the 
experiences you had just starting off.
    Mr. White. About three and a half years ago, some of the 
injuries that I had taken when I was in the service, the 
alcohol abuse, the--I had destroyed every relationship and I 
had someone say to me over at the CBSO--and I had no idea what 
it was. I couldn't walk any more and I just couldn't suck it up 
any more. And made an appointment, took me five weeks to get in 
to--she was like my hero today, Carolyn Hebenstreich, I'm 
sitting in the chair. I really had nothing left. She did all 
the paperwork for me. She said it all looks great. She bent 
over backwards to make sure I could be in the clinic in weeks. 
She couldn't make it any faster.
    Then I went over to the Vet Center and I finally got to 
talk to someone. It's so hard to explain to you how hard it is 
to come back and there's so little there for us. Sat in 
Derrick's office and found out that he was in my unit about a 
year after I was and he took an IED and he's talking about the 
pain he went through and then told me that I wasn't--I was 
normal. Ever since I spent time--I met my wife. She's been a 
blessing and I almost ruined that a couple of times. There's 
just so much pain, just so much loss.
    There's so much--but the Vet Center does a really good job 
with relationships and Rivers of Recovery, and Boots and 
Saddles, and there's people that care. There's just not a lot 
of words for it. They literally kick your ass out of the 
military and say fend for yourselves. There's nothing there.
    I had 90 days to get out. That means I had 90 days to 
establish a job. I had to find what I was going to do with my 
life. I got back from Iraq and it was like a daze. There was no 
transitional. There was no--I remember TAPS. They had a TAPS 
program, but I wasn't sober enough to pay attention. So I sat 
in the office and my life has been changed since. I spend a lot 
of time with veterans now and they just don't know what's out 
there for them. Sorry I took so long to answer.
    Mr. Denham. Thank you. Take your time.
    Mr. Thiesen, has the American Legion studied the benefits 
of holistic counselling? And do you believe that they could be 
effective, perhaps--more effective than traditional methods?
    Mr. Thiesen. It depends on the situation, but I do feel the 
American Legion has studied. They are in and out of the VA 
system continuously, annually, I should say in different areas. 
They work very close with the Vet Centers in the states that 
have them and the provisions and the care that was given in 
that area. It's something that's new that I think that needs to 
be addressed.
    Mr. Denham. Given the level of veteran unemployment that we 
have right now, nationally we're above eight percent 
unemployment. Veterans are about 12.2 percent, and here in the 
Central Valley, you are close to 20 percent unemployment. 
Veteran community unemployment goes up exponentially.
    Do you know why the VA has had difficulty hiring more 
veteran counselors for Vet Centers?
    Mr. Thiesen. Probably like some of the private practice. 
The veterans--sometimes--I don't want to say that. In fact, I 
know for a fact as I look at some of the graphs (inaudible). 
You've got these admitted young men and women who are in the 
National Guard Reserve today who are trying to get a job, but 
there's no stability in their position and their local area. 
And I think that's what the employer in the private sector is 
afraid of. How long are they going to be with them before 
somebody deploys them? They need to come back and they can get 
a job in six months or a year, at least they can find 
themselves established because there's a lot of experience in 
these young men and women who are serving in today's military. 
I think that that needs to be addressed. Don't be afraid to 
hire a vet because you don't know how stable he is going to be 
in your particular area.
    Mr. Denham. Thank you. My time is expired. Mr. McNerney.
    Mr. McNerney. Thank you. Well, your testimony we heard was 
pretty compelling, to say the least. One of the things that's 
clear to me is the value of Vet Centers. It's not those giant 
institutions. It's a place that's personal where a person can 
go in and get service. That's important for someone--like Mr. 
Lambert. He hasn't been there. Going into the VA was just a 
monumental trauma itself. Going into the Vet Center, it really 
is accessible. It's helpful.
    So what I'd like to concentrate on is how do we make sure 
that that service is available to more and more veterans. We're 
going to have a lot of veterans coming home as we draw down 
from Iraq and Afghanistan. We have to have these services. They 
are absolutely essential.
    One of the things I was surprised, Mr. Lundeby, was that 
you just left the service in 2010; is that right?
    Mr. Lundeby. Yes, sir.
    Mr. McNerney. By 2010, the Department of Defense was 
supposed to have programs to let people who are leaving the 
armed services know what services are out there. It sounds like 
from your experiences that just didn't happen; is that right.
    Mr. Lundeby. Well, I was really blessed. I got into the 
Ranger Regiments as special operations, so unlike--Phil is 90 
days. We have an exemption. I had 30 days just because it's an 
awesome unit. I wouldn't trade it for the world. But like I 
said, I was just--everything that he went through with this 
DD214 is hundred percent true. No one gives up on anything. 
It's like get out of here, get out of here. I was just blessed 
that my chain of command, everyone wanted to be there and cared 
about me.
    But nowhere in the TAP corps or anything like that, that 
said--basically the TAP force was a huge waste of my time. It 
was how to write a resume. I didn't need that. What there 
should be instead of no--let's see, join the Army at 17, you 
get out at 20, 21 or let's say join a couple of years later, 
you're still the same rambunctious guy. No one stationed at 
Fort Benning, Georgia, about 90 miles south of Atlanta cares 
that you're going to need a resume. I just want to go home, see 
my family and friends.
    What they need to have is a 10-day or a 15-day or something 
mandatory that, all right, you're out of the military. That's 
good. Now report to your local Vet Center. Make your contacts. 
Get in with a group of guys that want to care about you as a 
person. You're not just like, I'm unemployed working on Fort 
Benning. I'm going to be in my office from 10:00 to 10:30, take 
lunch, come back from 2:00 to 2:15 and then good luck trying to 
sign out of the military. It was harder to get out of the 
military than it was to get in it. I was running around like a 
chicken with my head cut off trying to get people to sign off. 
I had to go to an elementary school to get a paper signed that 
my kids are checked out of school. I don't have any kids. 
That's how ridiculous it was.
    Instead of how to build a resume class, some job most vets 
are never going to have, they really do need to just hand them 
a pamphlet, here, go to a Vet Center. Meet a core group of guys 
that care about your well-being. Been there, done that. And I'm 
two years out of the military now. Here's how I am helping 
Phil. Here's what we can do for you. The TAP class, that's why 
special operations we only had 30 days minimum.
    I was in Iraq--excuse me, I was in Afghanistan 32 days 
before I got out of the military. Came home, shoved all my 
stuff in cardboard boxes, threw it on the U-haul truck. Grabbed 
my fiance at the time. We got engaged before my last trip to 
Afghanistan because if I died, I accepted the fact I could die 
any second, not a big deal, but I wanted her to know how I 
felt, and so that was my mentality, death, whatever, I want my 
future wife to know how I feel.
    Literally packed my stuff in a U-haul truck, went to the 
two-second TAP classes, learned how to write a resume, like a 
16-year-old kid taking high school classes. It was a huge waste 
of time and I didn't know anything about the Vet Centers. If it 
wasn't for Randall Reyes bumping into me at a local gun store, 
hey, man, you should come hang out with us. We're going to have 
fun. So eventually I went and started hanging out with him and 
became friends with him one on one, had our own relationship. 
Otherwise, I would have never gone to a Vet Center. I would 
have never admitted that I needed help. I would never have--
Airborne Ranger, I don't need help. But without it I wouldn't 
have my wife right there.
    The arguments we got into over a blender in the sink. I'm 
talking about smashing picture frames, this guy, and not 
learning how to express myself and deal with the small stuff 
before the next big stuff. It really made a world of difference 
and that's why I'm so passionate, so upset is because how I 
found out about the Vet Center. It's just one in a million 
chance bumping into Randall.
    Mr. McNerney. Is that the typical experience as far as you 
all on the panel know; Word of mouth is how you hear about Vet 
Centers?
    Mr. Lambert. The Vet Center at Citrus Heights I think is 
the fastest growing Vet Center in this region which is 
supposedly the largest region in the United States, but it's 
all word of mouth.
    Mr. McNerney. The VA tells me that they can't advertise. 
But statutes I've seen say they can advertise. It's up to us to 
make it clear to the Secretary that he needs to reach out more 
than he's done on this issue.
    Another question I have is do they provide--adequate 
services to your families or--because they are the ones that 
are shouldering the burden. You guys have been through combat. 
You've been through hell, but the families, they are the ones 
that are shoring the long-term burden of having to help you 
through this.
    Mr. Lambert. Right now they are trying to get involved in 
that. There's virtually nothing right now for the families and 
you're right. It's a tremendous problem. The collateral 
damage--one day I can be really sweet to my wife and the next 
day I can destroy a blender.
    In my case a few years back there was nothing left of my 
kitchen. Nothing. I wasn't drunk. I went into a rage and there 
are triggers and I'm second generation and my son was a combat 
soldier also. And he heard the same thing--it's really tragic. 
He heard the same thing that I heard, that my dad heard, from 
our wives. You're not the same person. All three of us were 
divorced within a year from returning from combat.
    By the way, my grandson made a present for both of you guys 
I want you to know.
    Mr. McNerney. I've gone over my time.
    Mr. Denham. Mr. Lambert, I certainly think that it's a 
different time right now when there's an increased awareness of 
PTSD and at least making an attempt, while still need to be 
greatly improved, to address PTSD for those that are returning. 
But I don't see the same attempt for those that are carrying on 
the lifetime burden of the effects of the war.
    I just wanted to know if you could just share some more of 
your experience on mental trauma for how that can persist over 
a lifetime and how you deal with that differently than those 
that are just experiencing PTSD?
    Mr. Lambert. I was really fortunate. My fourth wife, 
actually my best friend. She is number four. Forty-two 
different jobs of which I was in business for myself for 25 
years. Drunk driving and rage, physical altercations like a 16-
year-old in high school. I didn't know how to deal with my 
rage. To be honest with you, I'm just learning now. At one time 
it became money, another time it became power.
    The awareness is here. You're absolutely right, 
Congressman. Congressman, you hit a great point. The VA tells 
you that they are not supposed to advertise. Well, the paper 
that I got said that Vet Centers are part of the VA. We're not 
asking to advertise. If I walk up to the window and I want to 
see a shrink because I want to kill somebody and you tell me 
I'm 21 days out, but you go down to Citrus Heights and see a 
Ph.D. in an hour, give me a break.
    The one thing I have found--I worked as a volunteer there 
three days a week. I've probably lost that job being here and 
saying what I said.
    Mr. McNerney. We'll put in a good word for you.
    Mr. Lambert. That doesn't work. Someone ought to take 
pictures. The VA, this sounds terrible, but if you want 
something to happen there, don't go there Friday afternoon at 
four o'clock. If you want to find some real solutions and you 
walk in and that's your boss and I'm asking you a question, 
because I'm the Congressman, right, and you're going to say, 
what's keeping him off your table. It's brutal that we get so 
caught up over there and when I say we, I'm not involved. I 
don't pay nothing, right. $5.99 lunch for eight hours' work. 
You do the math.
    Everybody gets caught up and forgets the vets, right. It's 
really funny; one-tenth of one percent, so looking at it from a 
business point of view we understand. Right. If I'm going to 
talk to one percent and I have 99 other patients, I really have 
to focus on them. The problem is that PTSD is such a 
multifaceted--the kids pay the price. The wives pay the price. 
Ultimately we pay the price. It's fathers, grandfathers. It's 
multifaceted. The whole family pays the price.
    My grandmother told me when I left in January of '68 for 
Vietnam, she leaned over the table, she said, ``Chris junior, 
don't you dare come back and let that war change you like it 
did your dad.''
    And I beg you to look at those pictures over there and see 
how much I did change in 11 months. We had solutions if you 
Congressmen can get these facilitators one on one behind closed 
doors and listen to those solutions. We've got some great 
programs and we know how to fight for each other. Right then, 
when this guy was getting emotional and he gets to 62 and finds 
out getting emotional is okay now. I had to reach out to him. I 
learned that 47 years ago on these little--Marine Corps duty. 
We'll protect each other if you give us the (inaudible.)
    Mr. Denham. Let me ask the question slightly different. 
There seems to be a greater awareness now of PTSD. Those that 
are returning home today if there is an incident, then at least 
there are some areas that you can go out and seek help. I think 
the military men and women that are leaving active-duty have a 
greater awareness that PTSD is real and there may be a problem 
and they may be able to recognize that and have a greater 
awareness to realize they have a problem and need to seek help.
    I don't know that there was that same belief from my aunt 
and uncle and my grandparents, many members of other 
generations that could use that same type of help today knowing 
that it's PTSD now, but not realizing in the past.
    My question to you is, your generation--I don't want to 
refer to you as being older.
    Mr. Lambert. It's okay. When you get older it doesn't make 
any difference.
    Mr. Denham. When you win an election they don't teach you 
how to be politically correct. I was trying to choose my words 
wisely.
    I want to make sure those that are out there that are 
realizing at a later age that they've got a lifetime issue and 
are seeking help.
    Do you think there's that same type of awareness of PTSD? 
And how do we make others aware?
    I think we are doing our best to work in bipartisan fashion 
to address today's problem, to make sure we don't make any more 
mistakes, that those that are getting off of active-duty today 
and coming back home, that we're trying to change the system so 
that we don't repeat the mistakes in the past.
    With that being said, we know there's a huge problem that's 
out there, how do we address today's problem for the future?
    Mr. Lambert. Well, I need to read you a paragraph. This is 
a couple of years ago. I found this on the Internet. This is a 
man in that picture over there that has a beret on. He was 
medivac'd with me. I found this on the Internet and I almost 
ended up in the funny farm.
    ``The following is a letter I wrote on behalf of my friend 
who seeked help at the Veteran's Administration. He had been 
paying for his own psychotherapy since 1984.'' This was written 
in '98, by the way. ``While I was in the process of writing the 
letter to verify he was wounded so that he could get the 
treatment he was entitled to, he tried to commit suicide. While 
the VA got the message and put him in the hospital for 30 days, 
all of his doctors said he had a serious psychiatric problem. 
Yet, 19 days--at 19 days a social worker at the hospital had 
him dismissed because if he stayed any longer he'd receive a 
hundred percent disability.''
    Now, you guys have copies of this whole thing. The last 
line reads--he's kind of trapped me now. ``This is the kind of 
crap vets have to deal with. I don't want to do that.''
    You're doing the right thing. If you start with the vet and 
work out, right, you get the right Ph.D.'s, not the ones that 
believe in the 12-week process where their Yale buddy is going 
to fix us. That's almost disgusting. I'll talk about it later.
    Congress is all we have. I can try to prepare for this, 
World War I--this has probably been going on for a hundred 
years, when some vets marched on Washington in 1924 they got 
killed. Danny McArthur was the one that killed him. They had 
two understudies, Eisenhower and Patton, but three presidents, 
Coolidge, Hoover and Roosevelt vetoed bills to help us vets. 
Congressmen are the ones that cared. They still put down the 
guns, but the GI's are still fighting for us.
    The only way I agree with being on this panel is because I 
believe that you two, because I've watched you, you having 
vets' interests at heart and you're not up here as a political 
cookie saying, okay, we care for the vets and I watched these 
past two years, both you gentlemen--I'm not in either of your 
districts, both you gentlemen have our vets' interests at 
heart.
    Does that help?
    Mr. Denham. Yes. I'm certainly Republican. And he's 
certainly a Democrat. This is an American issue and we're both 
very committed to that. We have to find a solution for that and 
we will work across party lines or across houses to get the job 
done.
    Mr. Lambert. The biggest nightmare we have--and I'll close 
with this. The biggest nightmare we have is over 140,000 
Vietnam vets committed suicide when they came home. We only did 
one tour. I know a young man from a 5th Marine in my outfit, he 
did 191 missions on his third tour. So the problem--I'm glad 
you're involved because it's needed. Thank you guys for coming.
    Mr. Denham. Congressman, your turn.
    Mr. McNerney. I just have one question. What I want to take 
away from this Committee hearing is what the Vet Centers need 
to be there for the veterans. What can we take away from this 
hearing, go back to Washington and say, okay, this is what we 
need to do.
    A couple of things I've gotten are the most common referral 
to the Vet Center is word of mouth. We need to improve the 
outreach. That's clear to me.
    The second one is better services for families of veterans 
from the Vet Centers.
    What other messages should I take home to Washington, on 
the other side of the country?
    Mr. Thiesen. I think, Congressman McNerney, I think what 
you need to do in the Vet Centers is you make sure you hire 
veterans. You can bring certified people in there to address 
the PTSD, but if he's a non-veteran, he can't relate to anybody 
on this panel, period. So I think that somebody that can 
control their PTSD, can go through the certification or the 
schooling, should be given some good consideration.
    You talk about the vets. World War II, I and II, Korea and 
Vietnam, sure, there was PTSD, but it wasn't addressed. They 
came home. They got a job. They started their families, and 
they worked for 20, 30 years. Their PTSD didn't get started or 
become really physical until they retired. Now, they are 
sitting at home doing not too many things and all of these 
flashbacks start coming back.
    Today's veteran, he comes home. He can't get a job. He's 
already in PTSD. I think you need to hire veterans who can be 
qualified to work in the Vet Centers, to be one-on-one veterans 
would be a big help to many of those men and women that are 
coming home today.
    Mr. McNerney. Thank you.
    Mr. Lundeby. Definitely the outreach part needs to be 
improved. My life would be a complete 180 if I didn't bump into 
Randall, if he didn't keep poking me, let's have fun. 
Eventually I get sucked into that center. What an awesome thing 
he did to my life. He's a great guy.
    Mainly if you were talking to me in 2010 when I was on 
active-duty, U.S. Army Ranger talking to a kid who's scared of 
heights, jumped out of planes. Yeah, I don't like roller 
coasters. But you were asked about PTSD, my brother is a 
captain in the Army and we had a sergeant that said it's 
completely phoney. It's just not a man being a man. Let's get 
rid of the D part. It's not a disorder. It's who I am. It's 
what made me who I am and how I survived, five combat 
deployments. I'd be willing to do anything for this country 
still. Let's get rid of the D part and it's post-traumatic 
stress. Everybody has it, just at different levels and it 
affects everybody differently.
    I think that they are realizing that no matter what, you're 
not the same person and it's how you now relate as a combat 
veteran, somebody who's been shot at, blown up, stepped on one 
too many land mines, seen their best friend die next to them, 
have someone that they deeply cared about steal their position 
on point, like my friend Chris there, and then have to deal 
with survivors. I think the biggest service you can do is 
give--just acknowledge that once you go through that doorway of 
saying you send me, I'll go and I'll serve my country, that 
when you come back to America you're going to be a little 
different and it's just acknowledging the fact that it's post-
traumatic stress and how you deal with regular civilians.
    It's the biggest thing that's helped me and I'll tell you 
the truth, none of my friends on active-duty will ever say that 
they have PTSD. None of them probably would go to a Vet Center 
if I asked them. The only way I could get my best friends to go 
to a Vet Center is to say, hey, there's a barbecue. Let's hang 
out. It won't be any of my civilian friends that ask you stupid 
questions. It will be just a bunch of brothers hanging out. And 
then help you work through this problem, how do you deal with 
this? How do you deal with that? How do you get back to normal 
life?
    So it really needs to drop the disorder and acknowledge the 
fact that everybody that has seen their best friend in an 
altered state, missing body parts or completely demolished is 
going to be different. I'm a different man. I came out pretty 
cool. I know that I'm different than a normal civilian.
    I just address that issue and I just take a little time and 
step back and go, well, you know, he's probably not thinking--
he's not a disrespectful little kid. He just hasn't been yelled 
at by his drill sergeant for five hours about his sideburns 
past the center of his ear. It's just different.
    If you want to help, drop the disorder part and really 
focus on the outreach because I consider myself very lucky to 
have met Randall and still keep my best friend with me.
    Thank you.
    Mr. White. You can go outside the Vet Center. They don't 
have what you call swag, little bracelets like this. You guys 
cut the budget on it because it didn't look right that they 
would hand stuff out to other veterans. This bracelet right 
here I can walk in with a bunch of veterans. They say what's 
that? It's the Vet Center. That's where I go get help. This 
little pen right here, budget is cut. This is probably a two-
dollar pen. This is probably a two-dollar pen. Probably the 
easiest fix you ever can sign off on, on the history of America 
is making it easy to have something that we can hand to each 
other.
    Mr. Denham. I want to thank all of you again for your 
service to our country. Thank you for being willing to come in 
today. This is about veterans helping veterans and your 
testimony today is going to help other veterans. It certainly 
will help our Committee and future hearings in working to pass 
legislation to actually fix this problem.
    I'd like to thank each of you for coming and testifying 
today and sharing your stories. Thank you.
    I'd now like to invite the second panel to the table.
    [Applause.]
    Mr. Denham. Ms. Carolyn Hebenstreich, Veterans Service 
Officer and Stanislaus County Department of Veterans Affairs; 
Mr. Ron Green, Veterans Service Officer for San Joaquin County 
Department of Veterans Affairs; Mr. Roger Duke, Readjustment 
Counseling Therapist for the Modesto Vet Center; and the person 
we've heard a lot about, Mr. Randall Reyes, an Outreach 
Coordinator for the Modesto Vet Center; and Lisa Freeman, the 
Director of the VA Palo Alto Health Care System.
    Mr. Denham. I thank you all for being here with us this 
afternoon and for all the good work that you do on behalf of 
our veteran neighbors. We will begin our discussion.
    Again, I'd like to remind each of you that your written 
testimony will be included into our record, so if you could 
stick to the green, yellow, red light with your opening 
statements and that will help us to quickly get to questions. 
And Congressman McNerney and I have quite a few today.

 STATEMENTS OF CAROLYN HEBENSTREICH, VETERANS SERVICE OFFICER, 
 STANISLAUS COUNTY, DEPARTMENT OF VETERANS AFFAIRS; RON GREEN, 
  VETERANS SERVICE OFFICER, SAN JOAQUIN COUNTY, DEPARTMENT OF 
     VETERANS AFFAIRS; ROGER DUKE, READJUSTMENT COUNSELING 
THERAPIST, MODESTO VET CENTER, VETERANS HEALTH ADMINISTRATION, 
 UNITED STATES DEPARTMENT OF VETERANS AFFAIRS; RANDALL REYES, 
   OUTREACH COORDINATOR, MODESTO VET CENTER, VETERANS HEALTH 
 ADMINISTRATION, UNITED STATES DEPARTMENT OF VETERANS AFFAIRS; 
 AND LISA FREEMAN, DIRECTOR, VA PALO ALTO HEALTH CARE SYSTEM, 
  VETERANS HEALTH ADMINISTRATION, UNITED STATES DEPARTMENT OF 
                        VETERANS AFFAIRS

               STATEMENT OF CAROLYN HEBENSTREICH

    Ms. Hebenstreich. Thank you both for letting me come here 
today.
    Mr. Chairman, Members of the Subcommittee, thank you for 
the invitation to appear before you to discuss veterans 
benefits. I'm a certified Veterans Service Representative for 
Stanislaus County. I have been serving the veterans in this 
county for more than 22 years. Prior to coming here I worked 
with the VA Medical Center in Livermore, California for 
approximately 12 years, serving in several different positions.
    At the time I was hired as a veterans representative I was 
aware of Vet Centers, but did not have much information about 
them. In 1989 when I took this position, the closest Vet 
Centers were in Fresno, California, and Concord, California, 
both over 80 miles from here. The closest VA center was over 50 
miles from here in Livermore, California. The Vet Center in 
Concord did contract with counselors in Stockton, California, 
for a while, even sent some of our veteran services officers 
here in Modesto.
    Around 1993 I started requesting a Vet Center located here 
in Modesto to help our veterans, as we were filing numerous 
claims for post-traumatic stress. The VAMC in Palo Alto opened 
a clinic here in Modesto with mental health availability around 
'95 and '96, but they were extremely overloaded and getting an 
appointment there was very difficult.
    The Concord Vet Center began contracting with someone in 
Modesto to see our veterans. Although it was helpful, it was 
not as helpful as a real Veteran Center would have been. 
Needless to say, we in Stanislaus County are very grateful to 
finally have a Vet Center established here. It is a tremendous 
asset to our veterans and counselors are always willing to go 
on the extra mile to assist our veterans and families.
    After working with VAMCs, VA regional offices and Vet 
Centers for many years I still find one major thing that does 
not happen within the Veteran's Administration. It's 
communication. Whether it be Federal, state or county 
government, we are here to serve veterans and we need to 
communicate about our services to each other as well as to our 
veterans and their dependents.
    I believe the VAMCs could do a better job with working with 
the Vet Centers. I personally have veterans here in my own 
county be put on fee-service contracts for post-traumatic 
stress counselling instead of being referred to the local Vet 
Center. I truly think this is all due to lack of communication.
    Please understand, I have been serving veterans for over 35 
years and I have seen VA change for the better in many, many 
ways. And I am proud of making these changes to improve these 
services to our veterans, but the VA still needs to do more in 
the way of communication and becoming one VA.
    Thank you for this opportunity to appear before you.

    [The prepared statement of Ms. Hebenstreich appears in the 
Appendix]

    Mr. Denham. Thank you.

                     STATEMENT OF RON GREEN

    Mr. Green. I'd like to thank you for the opportunity to be 
here today. I'm the San Joaquin County Veterans Service 
Officer.
    My purpose for being here today is to advocate for 
improvements in medical substance abuse and mental health 
services for veterans in our region. Efforts are underway to 
improve and expand veteran services, but I believe the current 
efforts should be expedited if possible, and then more can be 
accomplished. I support increasing the number and staff of the 
Vet Centers. I support expediting the construction of the 
expanded specialty clinic and long-term care facilities in 
French Camp and I support open enrollment in the VA health care 
system to all veterans with qualifying discharge and service.
    Before the establishment of the Modesto Vet Center, the 
Central Valley between Sacramento and Fresno was bereft of a 
Vet Center. Service was provided on a contract basis by the 
Concord Vet Center. Even now the Vet Center program needs to be 
increased with more Vet Centers or increased staffing or both.
    About two weeks ago I had a discussion with the director of 
the Vet Center in Sacramento. He advised me that he was 
exploring the possibility of twice a month outreach sessions in 
Lodi in Northern San Joaquin County. He also indicated that he 
was doing other outreach services.
    Demand for the Vet Center services is increasing for two 
principle reasons. The first is to return to the OIF/OEF 
veterans and deployed reservists and National Guard. In the 
past, CDVA had provided us with information about recently 
discharged veterans. Based on what we were able--based on that 
we were able to estimate that the number of new veterans 
returning to San Joaquin County each year would be between 420 
and 450 a year.
    The second reason is the number of times possible mental 
health issues have been raised during our claims preparation 
process. Claimants with mental health issues are provided with 
contact information and literature regarding the Vet Center and 
the VA clinic and they are advised to contact them for 
assistance. The number of referrals for our office averages 
approximately 20 a month.
    There are estimates that 10 to 20 percent of returning OIF/
OEF combat veterans are afflicted with PTSD. This is compared 
with 10 percent for Desert Storm and 30 percent from Vietnam. 
PTSD is a problem for veterans of other wars. But to the 
extent--but documenting it has been difficult. I personally 
recollect three World War II veterans that I've worked with on 
PTSD issues. One was a Pearl Harbor survivor. One was in the 
Battle of the Bulge and the third was on the destroyer that was 
hit by a kamikaze plane.
    PTSD not only affects the veteran, but leaves in its wake 
failed relationships and a history of substance abuse.
    The VA health care system, especially at Palo Alto, has 
become the leaders in dealing with PTSD. Palo Alto is the 
parent center for our three CBOC's in San Joaquin, Stanislaus 
and Tuolumne Counties. All provide mental health care. In 
addition to the clinics, there are plans for an expanded 
medical and behavioral health clinic and long-term care 
facility to be constructed in the Central Valley on 52 acres of 
land. The construction needs to start as soon as possible 
considering that the average age of our veteran population is 
about 60 years old and as high as the service population here 
in the Central Valley is almost 80,000.
    San Joaquin County has partnered with the VA to construct a 
primary care clinic that opened approximately five years ago. 
The number of veterans utilizing that clinic has already 
exceeded the capacity of the facility and plans are underway to 
open expanded--an expanded modular facility in the next year. 
I'm also advocating that enrollment in the VA health care 
system needs to be open to all veterans with qualifying 
discharges and services. It should be sufficient that a veteran 
has served honorably for the required length of time in order 
to enroll in the VA health care system. It should not--it 
should be just enough that the veteran had served.
    I'd like to thank you for the opportunity to be here today. 
As I've said, I support an increase in the Vet Center program. 
I favor the accelerated schedule for the completion of the 
expanded skills clinic in French Camp. And lastly, I would like 
to see the elimination of the income limits for enrollment in 
the VA health care system.
    Thank you.

    [The prepared statement of Mr. Green appears in the 
Appendix]

    Mr. Denham. Thank you, Mr. Green.

                    STATEMENT OF ROGER DUKE

    Mr. Duke. Good afternoon, Congressman Denham and 
Congressman McNerney. Thank you for the invitation. My best 
wishes for Chairwoman Buerkle. Thank you for inviting me to 
discuss the Modesto Vet Center's practices in providing 
treatment, readjustment counselling services to veterans and 
their families within the larger VA health care system.
    Having witnessed your own participation in community events 
with veterans and their families, I'm honored and proud to 
provide a boots on the ground perspective to readjustment 
counselling services.
    From previous testimony we can see how important that the 
relationship is among the veterans who had previously 
testified. Vet Centers present a unique service environment, a 
personally engaging setting that goes beyond the medical model 
in which veterans can receive professional and confidential 
care in a convenient and safe community location. Vet Centers 
are community-based counselling centers, within the 
readjustment counselling service, that provide a wide range of 
social and psychological services, including professional 
readjustment counselling to eligible veterans and their 
families, military sexual trauma, both male and female 
counselling, and bereavement counselling for eligible families 
who experience an active-duty death.
    Modesto Vet Center, like those throughout the country, also 
provides community outreach, education and brokering of 
services with community agencies that link veterans with other 
needed VA and non-VA services.
    The core value of the Vet Center is to promote access to 
care by helping veterans and families overcome barriers that 
may impede them from using those services. For example, all 
Veteran Centers have available evening and weekend hours to 
help accommodate the schedules of veterans and their families, 
especially those that are students and those in the workforce.
    The Vet Center program is the first program in the VA or 
anywhere to systematically address the psychological traumas of 
war in combat veterans. The Vet Center program's establishment 
of a program to treat these invisible wounds of war came a full 
year before the definition of post-traumatic stress disorder 
was published in the third edition of the American Psychiatric 
Association Diagnostic and Statistical Manual in the 1980.
    Modesto Vet Center opened four years ago and is part of a 
larger network of currently 300 Vet Centers located throughout 
the United States, Puerto Rico, Guam and American Samoa. Vet 
Center staffs provide a wide range of veteran-centric 
psychotherapeutic and social services to eligible veterans and 
their families in the effort to help these veterans make a 
successful transition from military to civilian life. For 
eligible individuals, services can include individual group 
counselling; family counselling; bereavement counselling; 
military sexual-trauma counselling; educational classes on 
PTSD; couples communication; anger and stress management; sleep 
improvement; and transition skills for civilian life.
    In addition, we provide substance abuse assessment and 
referral; screening and referral for medical issues, including 
mild-traumatic brain injury, depression, anxiety, et cetera. We 
also provide--Veterans Benefit screening and referral.
    Like Vet Centers throughout the country the Modesto Vet 
Center is a small team reminiscent of a military squad. Modesto 
Vet Center is staffed by a team leader--our team leader is 
Steven Lawson--three readjustment counselors, an office manager 
and an outreach specialist. Two of the clinical staff in 
Modesto are also designated as a qualified military sexual-
trauma counselor and family counselor.
    In addition, the Vet Centers partner with VA's vocational 
rehabilitation staff, veteran service organizations, California 
Employment Development Department, judicial outreach of the VA 
Medical Center in Menlo Park and maintains a bidirectional 
referral process to other VHA facilities.
    Community partners are integral to successful support to 
veterans while they are in the readjustment process. Modesto 
Vet Center community partners include private citizens and 
community non-profit organizations offering socialization and 
recreational activities that are vital to maintaining mental 
health. Some of the organizations provide inland and ocean 
fishing, crabbing excursions, sailing, horseback riding and 
bowling. Our counselors have also been involved in efforts to 
reach out to veterans in the criminal justice system along with 
other stakeholders in the community.
    Vet Center counselors have provided education to courts on 
PTSD assessment and treatments in support of California Penal 
Code 1170.9. For example, I've been invited to be a regular 
instructor to the law enforcement academy, crisis intervention 
training to provide a perspective to crisis negotiators on the 
issues of facing combat veterans as they return and readjust to 
the communities. This relationship has played out in a positive 
manner on the streets of Modesto where in one example, a combat 
veteran was given a referral to our office in lieu of possible 
involvement with law enforcement.
    Stanislaus County Mental Health Forensic program manager 
has praised us for our effort in elevating the competence, 
cultural competence for veterans issues, especially those 
returning from combat.
    The Vet Center program remains unique in the eyes of the 
combat veteran thanks to the ability of the Vet Center staff to 
personally engage the individual veteran in a safe and 
confidential manner that minimizes bureaucratic formalities. 
Confidentiality with our veterans and their families is of 
paramount importance. Our staff respects the privacy of all 
veterans and holds in strictest confidence all information 
disclosed in the counselling process.
    The Vet Center's ability to rapidly and effectively respond 
to PTSD and other post war readjustment difficulties makes it 
an integral asset within VA. It is the community's point of 
first contact with many returning combat veterans. Vet Centers 
also serve as the front door for referring many veterans for 
other needed VA services. Vet Centers also promote 
collaborative partnerships with the VHA health care and mental 
health professionals to better serve veterans requiring more 
complex care.
    I apologize for taking more time. I'm not an orator or a 
public speaker. I'm a therapist. I appreciate the opportunity 
of coming here.
    Mr. Denham. With that in mind, we would ask you to wrap it 
up.
    Mr. Duke. My own experiences have helped me appreciate the 
challenges that come with certain combat veterans. As a Vietnam 
combat veteran myself and the father of a veteran who served in 
both Afghanistan and Iraq, I can attest to this need as well as 
to the great work provided at Vet Centers. I believe Vet 
Centers, to include Modesto Vet Center, provide a best practice 
model in fostering veteran-to-veteran relationships. Whether 
helping the criminal justice community understand veteran 
readjustment, arranging reintegration for an active-duty solder 
or providing bereavement services for family members, or 
participating in gold star events, or listening to a World War 
II veteran dealing with the loss he experienced over 60 years 
ago, the Modesto Vet Center is there to keep the promise.
    Thank you again for this opportunity to share with you.

    [The prepared statement of Mr. Duke appears in the 
Appendix]

    Mr. Denham. Thank you.

                   STATEMENT OF RANDALL REYES

    Mr. Reyes. Good afternoon, Congressman Denham and 
Congressman McNerney. Thank you for the invitation to discuss 
the Modesto Vet Center's efforts to provide the best care 
possible to the Central Valley veterans but also to those who 
are being discharged from active-duty and going to different 
parts of the United States.
    I'm a 13-year veteran of the United States Marine Corps. I 
have served in areas such as the Horn of Africa, Afghanistan 
and Iraq. I was introduced to the Vet Center through my father 
who was also a Vietnam veteran and a Vet Center client. I also 
have other relatives and friends who have served in Iraq and 
Afghanistan who currently use Vet Center services. I have seen 
firsthand the difference the Vet Centers have made in their 
lives. I believe in the Vet Center's mission and what VA 
officials do for veterans who have experienced trauma and for 
their families who want to be there for their veterans and 
offer support.
    VHA Readjustment Counselling Service has implemented 
initiatives to ensure veterans have access to Vet Center 
services. Following the onset of current hostilities in Iraq 
and Afghanistan, the Vet Center program hired 100 Iraqi or 
Operation Enduring Freedom and Operation Iraqi Freedom and 
later Operation New Dawn Veteran Outreach Specialists to 
proactively contact the fellow returning veterans on military 
installations across the country. Veterans such as myself, with 
military and combat experience, provide an instant connection 
for returning servicemembers, making it easier to build 
rapport, overcome stigma, earn trust and ultimately engage in 
discussions about access and referral to services.
    In my role as outreach specialist, I proactively seek out 
fellow veterans where they are in the community. This usually 
includes participation at a variety of Federal, state, locally 
organized veteran-related events or actually going to places 
where veterans and servicemembers frequent, such as Unit 
Armories, universities and college campuses. I also ensure that 
family members of eligible veterans are aware of services that 
the Vet Center can provide. I have worked closely with other VA 
programs, such as vocational rehabilitation, VHA enrollment and 
veteran homeless programs in hopes that the veteran attending 
the outreach event can receive information and referrals to all 
VA services.
    The Modesto Vet Center also has access to a local Mobile 
Vet Center. There's one outside. This program, the Mobile Vet 
Center, provides access to returning combat veterans via 
outreach on a variety of military and community events. The 
vehicles extend the outreach to more rural and highly rural 
communities that are isolated from existing VA services. 
Furthermore, the vehicles are also a part of the VHA emergency 
response leverage readiness in times of national and local 
emergencies. Each Mobile Vet Center has space for private 
counselling and is equipped with a state-of-the-art satellite 
communications package that includes fully-encrypted 
teleconferencing equipment, access to VA systems and 
connectivity to emergency responses.
    The Modesto Vet Center has used the local Mobile Vet Center 
at a variety of events such as homeless veteran stand downs. 
Another instance, the Mobile Vet Center was used in a setting 
which provided outreach and referrals to more than 1,500 
returning members of the Idaho National Guard after a recent 
combat deployment.
    Finally, the veterans and their family members have access 
to the Vet Center Combat Call Center. That is at 1-877-WAR-
VETS. It is an around-the-clock confidential call center where 
eligible combat veterans as well as their families can talk 
about their military experience or any other issues that they 
may be facing regarding their transition back to civilian life. 
The staff is comprised of combat veterans and family members of 
combat veterans from several eras. This benefit is earned 
through the veteran's military service.
    The call center which opened in 2009 is a product of the 
VA's leveraging technology to condense the national system of 
toll-free numbers into a single modern center located in 
Denver, Colorado. The call center staff has access to state-of-
the-art technology to provide warm handoffs to the VA National 
Crisis Hotline, the VA National Caregivers Support Hotline, and 
the Dayton VA Primary Care Triage Hotline when medical care is 
needed.
    Again, thank you for the opportunity to testify before this 
Committee.

    [The prepared statement of Mr. Reyes appears in the 
Appendix]

    Mr. Denham. Ms. Freeman.

                   STATEMENT OF LISA FREEMAN

    Ms. Freeman. Good afternoon, Chairman Denham and 
Congressman McNerney. Thank you for giving me the opportunity 
to discuss the VA military system's efforts to provide the best 
care possible to not only our Central Valley veterans, but all 
veterans in our catchment area from Sonora to Monterey. I want 
to also address that excellent collaboration we have with our 
Vet Centers in Redwood City, San Jose, Capitola, and of course, 
Modesto.
    Let me begin by giving you a bird's eye view of our health 
care system; one of the largest and most complex VA health care 
centers in the country. The VA of Palo Alto Health Care System 
consists of three inpatient divisions located at Palo Alto, 
Menlo Park and Livermore, in addition to seven community-based 
outpatient clinics in San Jose, Monterey, Capitola, Fremont, 
Stockton, Sonora, and Modesto.
    Our primary hospital is located at Palo Alto and like most 
VA hospitals is a teaching hospital providing a full range of 
patient care services as well as education and research.
    The VA Palo Alto Health Care System has more than 800 beds, 
including three community living centers or nursing homes, and 
a hundred bed homeless rehabilitation center on the Menlo Park 
campus. The VA Palo Alto Health Care System is home to a 
variety of regional treatment centers including a spinal cord 
injury center, a polytrauma rehabilitation center, the Western 
Blind Rehab Center, a geriatric research, educational and 
clinical center, and homeless veteran rehabilitation program, 
and men's and women's trauma recovery programs. Many of these 
programs also treat active-duty military servicemembers.
    With a construction budget of more than one billion dollars 
the VA of Palo Alto Health Care System has launched many 
ambitious building programs on its Palo Alto campus, including 
a new acute mental health facility that will open this summer 
and a new polytrauma and blind rehabilitation center, and 
additional lodging facilities for veteran patients and their 
families.
    I'm very pleased to say that we are investing time, money 
and clinical skill in Modesto as well, for we have broken 
ground on a brand new community-based outpatient clinic that 
will more than double the square footage of the current clinic. 
This 10.3 million-dollar lease contract awarded to the 
California Gold Development Corporation from Sonora, 
California, will also create at least a hundred jobs during the 
site development, construction and activation of this project. 
The 23,000 square foot clinic will treat at least 7,000 
veterans. We are also expanding our clinic in Stockton, and as 
Congressman McNerney is well aware, we are also going to be 
building a large multispecialty clinic along with a 120-bed 
community living center in San Joaquin County.
    To augment our direct clinical care, we are expanding our 
real-time telehealth care programs throughout the health care 
system and particularly in the Central Valley. Along with 
telehealth care programs for pain management, gastroenterology 
and rheumatology in Modesto, we offer telehealth opportunities 
for veterans in the mental health arena. In fact, last fiscal 
year more than 80 percent of our telehealth encounters were for 
mental health.
    We have terrific collaboration between the VA Palo Alto 
Health Care System and our Vet Centers. I'd like to end today 
by telling you a story of a very special young man in the 
audience today, Mr. Derrick McGinnis, that illustrates that 
collaboration.
    Navy Corpsman Derrick McGinnis first arrived at our VA on a 
gurney having lost a leg and having suffered a traumatic brain 
injury after an improvised explosive device exploded near him 
in Iraq in 2004. Following years of painful, arduous 
rehabilitation he eventually came to work for us as a clerk at 
our Modesto clinic. He went on to earn his master's degree in 
social work, and then went to work at the Modesto Vet Center. 
This January Derrick came back to the VA Modesto clinic and is 
now working as a medical social worker. If anyone understands 
the collaboration between the Vet Center and the VA Palo Alto, 
it would be Derrick.
    ``What really makes the partnership work is the people,'' 
said Derrick. ``It's knowing when you call someone at either 
the VA clinic or the Vet Center they will respond with concern 
and utmost care to get the veteran what he needs and to do it 
quickly. It is truly about the people and both from the care I 
received personally and the care I had administered that the VA 
Palo Alto Health Care System and the Modesto Vet Center make up 
the best team ever. I was so privileged to have served my 
country in the Navy and even more privileged to continue 
serving my fellow veterans.'' So Derrick, would you please.

    [The prepared statement of Ms. Freeman appears in the 
Appendix]

    Mr. Denham. Thank you.
    Mr. Denham. Ms. Hebenstreich, in '93 you lobbied to get a 
VET center here in Modesto. Why did you do it and what did you 
want to accomplish and what did you need to accomplish?
    Ms. Hebenstreich. Well, as you know, the--I worked for the 
VA from '76 to '89 and we had many, many Vietnam vets, but 
during that time we never really started hearing about post-
traumatic stress until the--I would say really started really 
good in the middle '80s. And then when I came to start filing 
claims for veterans and then when people became more aware of 
post-traumatic stress, what it is, used to be neurosis, battle 
fatigue and all those names. Yeah, it really is post-traumatic 
stress for everyone. We started filing numerous claims, many, 
many claims.
    We didn't really have anywhere to send them for treatment. 
At that time it was all the way in Livermore VA. And they were 
already overloaded and they didn't have enough mental health 
staff, as far as I was concerned, or Palo Alto, and Palo Alto 
was just so far away.
    I knew of the Concord Vet Center. And so I said get them to 
send a counselor out sometime. I knew they had some going to 
Stockton. We were able to work with it, but the last of the 
record that was there, not the gentleman that's there now, I 
used to bug him all the time along with Mr. Edgecomb (phonetic) 
here who is American Legion. We bugged him and bugged him to 
try to get somebody out here, get more counselors, just to get 
us a Vet Center because we have a lot of vets, a lot of Vietnam 
vets here and in San Joaquin County and all the surrounding 
counties. The closest, like I said, was Fresno and Concord is 
just too far for the guys to go to get counselling.
    When they finally decided they were going to open some more 
Vet Centers, they called me and said, well, it looks like you 
are going to get one. We were really excited about that. It's 
been great that it happened and has been a great help.
    Mr. Denham. Thank you.
    Why do you think the communication is so poor between the 
VA and Vet Centers?
    Ms. Hebenstreich. You know, I could never really put my 
finger on it even when I worked at the VA. Actually, I worked 
there when I was 16 years old as a student in the summer. There 
was some money left from Kennedy, President Kennedy's special 
program so it was the summer aid to students. Now, that's like 
in '68, so there was a lot of the Vietnam vets coming home, and 
then like--I was born and raised in Livermore, so I had been 
around the veterans and we went there for school plays and 
always been a part of my life. And then when I was 25, I went 
back to work out there as the file clerk and as a GS1, believe 
that, and that was still money from Kennedy. And then I worked 
my way up to a section chief, did a lot of eligibility.
    I don't know what it is, it's just--I'm sure it's 
throughout the government, but it's like I tried to learn--like 
I said, I started as a GS1, I went to GS9 and every step of the 
way I tried to learn as much as I could in every job, not just 
the job that I have. I ran up against walls all the time. Like 
if I teach you, you're going to take my job, that kind of 
attitude. I think it still happens.
    I see it now even with the local clinics that are staffed 
within the VA. Not just at the VA medical centers or clinics, 
but at the regional offices and throughout the VA, it's like I 
don't want to teach nothing because you're going to take my job 
kind of thing. It shouldn't be that way. They should have 
cross-training in your field, not saying medical field or 
mental health or whatever, but even the clerical field, 
anything, they should be cross-trained.
    When I worked at the VA I went and talked to the chief of 
medicine there and at that time I was just an eligibility 
clerk. I told him, your doctors really need to be aware of 
eligibility. Well, why do you think so? So I told him and he 
invited me to their morning meetings for like every three or 
four months just to tell the doctors about different things. 
That kind of thing. They need to communicate. They need to 
share their information, just like the Vet Center.
    Believe me, there's a lot of times at the VA they don't 
tell him, hey, you can go to the Vet Center. I tell him you 
better come to my office that's been in combat or if you see 
that they have a problem, to go the Vet Center because I 
believe in those guys. And let me tell you, I had a guy two 
weeks ago that his wife was crying and he was on the verge of 
killing himself and her. And I wasn't about to let him leave my 
office. I called the Vet Center. The student that answered the 
phone told me that they were all in a meeting. I said I don't 
care. You get Steve Lawson. I want to talk to him now. Steve 
called me right back. I said the family is on its way. He needs 
help. He got to the Vet Center. Steve seen him personally. He 
got admitted to VA Palo Alto. They saved a life. You know what 
I mean.
    It wasn't just about the VA stuff. This guy is 80 percent 
service-connected. He has cancer, he has PTSD, all kinds of 
issues and he thought Social Security turned him down again and 
he misread the letter. I couldn't get through to him that 
that's not what they are saying. Social Security didn't deny 
him. He just had his wall, everything is over with. Steve got 
him admitted to Palo Alto and he's okay and he got his Social 
Security check last week.
    They are vital. They are vital to these guys that have had 
problems. I just want to say one thing that I think that for 
one thing, for the outreach or for the TAPS program that the 
other gentleman was talking about, I have so many that come to 
my office that say, well, nobody told me, nobody told me. I 
still file claims for PTSD for World War II vets that never 
knew anything about it. But I think that you have an outreach 
person from a Vet Center, at least go over the TAPS program at 
every base when they have separation and let them tell them 
about the VA and the Vet Center, that would stop a lot of this 
I never knew stuff. I think that's a big thing that should be 
pushed from you guys.
    Mr. Denham. Thank you.
    One final question, Mr. Duke. When I was a state senator, I 
chaired a Veterans Committee and we launched Operation Welcome 
Home. One of the things we found was just no communication 
between DoD, VA, VA and Vet Centers and so Operation Welcome 
Home was trying to capture more California information so we 
could conduct outreach to the veterans. I think they've come a 
long way, but still without having that information from DoD, 
you might get discharged in Texas even though you're a 
California resident so you don't have that information.
    My question to you is: We had that same challenge between 
the VA and Vet Centers. I have a Bill H.R. 3245 which will 
allow Vet Centers to share information back and forth with VA.
    Can you tell me your opinion how that would help?
    Mr. Duke. Well, I would first like to just say I think it 
can help. The operational end of it, how it's operationalized 
on our level, of course, we want to make sure we maintain 
confidentiality, we maintain that sort of informal setting that 
we have with the Vet Centers. I think that any information that 
will help us to reach out to veterans that are going to need it 
and then you look at antecedents, those kinds of things that 
will alert us to maybe veterans that are needing to be reached 
would be helpful. As a therapist, I could see where that could 
work.
    But I'd also like to defer that to our Regional Manager. I 
know that there's a lot of study going on about that, just for 
the record. But from my perspective I don't--we know how to 
work around information sharing and to make sure that we keep 
the veterans feeling safe. It's something that we use in a way 
that they are going to feel comfortable.
    Mr. McNerney. Thank you. First comment is that I know that 
everyone here on this panel has dedicated a tremendous amount 
of your life towards the veterans and I thank you for that. 
It's not easy. It's case by case. It's veteran by veteran. 
There's a lot of veterans out there so keep up that work. We 
need you guys for doing that.
    My first question is to Ron. Who is the Veterans Service 
Officer for San Joaquin County, one of my main counties?
    How often do veterans approach you with questions about Vet 
Centers?
    How many of our veterans from San Joaquin County come down 
to Modesto for the Vet Center here?
    How accessible is the Modesto Vet Center, for our veterans?
    Mr. Green. Well, as far as being approached about the Vet 
Center, I wouldn't say it worked so much that way is that what 
we try to do is attract the veterans to the Vet Center.
    One of the things that's part of health care services, 
myself and my staff have all gone through training in mental 
health, first aid for first responders. We look at the issue or 
look at discharges, the service in combat zones and may ask 
exploratory questions looking for possible issues relating to 
PTSD and then try to get them over to the Vet Center or to the 
VA clinic.
    Mr. McNerney. What are some of the barriers you think that 
our veterans face, at the beginning of service whether it's 
from Vet Center or from the VA Veteran's Administration in 
general.
    What do you think are the biggest barriers that our 
veterans face in getting service?
    Mr. Green. Awareness. It's interesting, I was talking to 
one of the staff members for the CAO last week and for someone 
that had been involved in veterans issues related to the VA 
clinic, she didn't totally understand how the Vet Center was 
positioned in the VA Health Administration.
    I also think that the awareness, public relations. I don't 
think that the veterans are totally aware that the Vet Centers 
exist.
    Mr. McNerney. Miss Freeman, what do you think that my 
colleague, Mr. Denham and I could do to make--as a result of 
this hearing or in general to make services more available to 
veterans.
    Ms. Freeman. Well, I think that the more veterans hear 
about the good things that they can get out of accessing the VA 
versus the way that the VA perhaps hasn't performed as well so 
they think of the VA as a good system, that truly is there to 
help them and very sincerely wants to help every veteran. It 
also would be helpful if on the Web sites there were links to 
veteran services across the country. Just that when they hear 
good things about VA, they are going to want to access the VA. 
The more they hear good stories, they are going to want to be 
there.
    Mr. McNerney. Do you have mental health professionals in 
your directory.
    Ms. Freeman. So we have greatly increased the mental health 
staffing, as I think you both know, over the last several years 
through funding that you all have provided. We've had about a 
hundred staff over the last five years specifically in mental 
health. Now, having said that, I know there was an article in 
the paper today, USA Today about difficulties in recruiting 
mental health professionals. That's just a fact there aren't 
enough psychiatrists and psychologists, so that is a constant 
challenge for us, so the more we can do to make VA jobs 
attractive to those scarce professionals, the better.
    Mr. McNerney. One of the more common things I've heard this 
afternoon was from Mr. Lambert was that--suffering from severe 
post-traumatic stress going to a big VA center was almost 
incomprehensible.
    What can we do? Is there--I mean, I really think the Palo 
Alto base serves a great purpose. I'm dying to see our veteran 
center built in French Camp. What can we do to make sure Vet 
Centers are available, that they feel welcome, that they feel 
it's close enough they can get to? What can we do to make that 
service available to people who can't make it to big centers?
    Ms. Freeman. Well, I think that certainly more education 
for our staff because what we encourage our mental health 
professional staff to do is to let veterans know there are 
three ways to get mental health care now. They can get it 
through cooperation through primary care teams. We have an 
embedded psychologist with the primary care or primary care 
physicians can be getting a warm handoff right in that primary 
care setting to a psychologist.
    There's also the mental health clinic. Paying attention to 
when we're designing these new facilities, how do we make that 
way finding much easier for them when we have the opportunity 
in designing new facilities.
    And then the third part is part of our standard work would 
be talking about Vet Centers and making sure that every mental 
health professional is giving those three options to every 
veteran they encounter.
    Mr. McNerney. Do you think we have enough Vet Centers? Are 
we going to see a big influx or a demand for this service.
    Ms. Freeman. We would always welcome more resources for the 
Vet Centers, absolutely.
    Mr. McNerney. I yield back my time.
    Mr. Denham. You brought that USA Today article. I read that 
article as well. It also said we should have more veterans 
helping veterans.
    How can you address that?
    Ms. Freeman. We absolutely support that peer-to-peer 
support model you're talking about. It would in no way take the 
place of other modalities, either inpatient or outpatient, for 
mental health treatment. Our goal is to reintegrate veterans 
into the community. We've heard over and over again this 
afternoon that the best recommendation for a veteran to receive 
mental health or any other kind of care through VA is from that 
firsthand experience of a fellow veteran.
    Mr. Denham. We've heard a lot of very positive things about 
Vet Centers referring patients to VHA. I don't very often hear 
about VHA referring people to Vet Centers.
    I wonder if you can comment on that as well. I understand 
Vet Centers have an electronic enrollment system that differs 
from VHA electronic health records.
    What are the challenges and reasons for maintaining 
separate systems?
    Ms. Freeman. Your first question about how often do we 
refer to Vet Centers. I can tell you that in our outreach 
activities that's probably the most common venue in which we 
refer to Vet Centers because if you're getting to meet a 
veteran for the first time, you might understand some of what 
was discussed this afternoon of a reluctance to come into that 
maybe scary VA Medical Center setting and recognizing that and 
offering the Vet Center as an alternative to our medical model 
of mental health care. So that would be--that's pro forma for 
us to include the Vet Center as a resource.
    And as for my commenting on the separate system, I'm sorry, 
could you repeat that one?
    Mr. Denham. Do you have a separate electronic system for 
your information? Part of my frustration is that VA has their 
system, VHA has their system, and the Vet Center has their 
system. None of the systems talk. We have a huge problem with 
communication.
    Ms. Freeman. That's part of your bill that's forthcoming 
right now. I know the department was reviewing your bill, so I 
really don't have any comment on that.
    Mr. Denham. Thank you.
    Mr. Reyes, as one of the Mobile Vet Center operators, you 
visit a lot of areas throughout the entire region.
    What are the particular challenges you have reaching out to 
our veterans, especially in those rural areas?
    Mr. Reyes. Well, getting out to the rural areas, we have 
been able to coordinate with rural areas that work for the VA 
side. The problem with how it would be, if the community itself 
is holding an event, they don't get word out to us for an 
invite. Once they do, then we go ahead and put in a request to 
get a Mobile Vet Center. We usually can get that out there to 
them.
    Mr. McNerney. Thank you, Mr. Denham.
    Miss Freeman, what challenges--this is an issue that was 
raised here today one or two times.
    Do you have them reaching out to the families and providing 
services to the families of veterans?
    Ms. Freeman. Well, I think in our experiences of polytrauma 
center we've gotten much better with that in including the 
family in the care planning for the veteran. I think the 
challenge is just having the right modality, so to speak, 
having the right family therapist or the right way of 
incorporating the family into the counsellings that we are 
providing to a veteran and coordinating that time such that the 
family members could participate. That would be probably the 
biggest challenge.
    Mr. McNerney. Well, some of the testimony I heard was that 
the Vet Centers are great. They provide a great service, they 
reach out. They do as much as they can, but they are limited in 
what they can do for families.
    Is there some way we can see that program improve?
    Ms. Freeman. Certainly with the caregiver support 
legislature that you had referenced earlier and being able to 
provide that training to caregivers of veterans has gone a long 
way of bridging that gap.
    Mr. McNerney. Mr. Duke, do you feel that you have a broad 
spectrum of hours to serve veterans that need help on an 
emergency basis? Are you there 24/7? What are your limitations.
    Mr. Duke. Sir, we're not there 24/7 physically, but we do 
have regular extended hours. I'm personally there one evening 
through 7:30 in the evening to handle a group and we've had 
another counselor there that was there for a couple of days--
two other meetings to accommodate those veterans that need the 
flexibility of meeting after hours.
    If there's a crisis situation, of course, after hours we 
have the telephone referral. We try to work so that if we do 
have one of our veterans that are at risk, we have all gone 
through suicide intervention training and we work proactively 
to develop plans, to implement those plans if there's a crisis 
or a situation that elevates. But I think that right now we do 
adequately meet those needs and it is an area personally that 
I've been contemplating to open up, but we do as far as 
offering them that flexibility for individual counselling.
    Mr. McNerney. Are you concerned about your resources to 
deal with a larger influx of veterans who would have needs.
    Mr. Duke. Of course, there are. Concerned only in the sense 
of what are the numbers and that kind of thing. One of the 
things that I've learned--I've only been with the Vet Center 
for a year and a half. I've known about our Vet Center since it 
started and I've worked different capacities with National 
Guard, as a psychology professional.
    One of the things that I think is really good about the Vet 
Centers is their ability to look at a situation and be flexible 
enough to expand out as they need. If personally we can plan 
ahead and plan that expansion, I think that right now we are 
meeting those needs. I really like some of the ideas that I've 
heard previously about vets helping other vets and being part 
of that healing process and what we as health care providers 
can do to facilitate that.
    We know that we provide a safe environment. But we're also 
dealing with things that are going to be with us for the 
duration. And I just--I'm aware of that. I'm not going to 
probably be around 20 years from now, but I certainly can see 
that that relationship will be maintained, health care 
providers is going to have to--
    Mr. McNerney. You feel that you provide adequate services 
to family members.
    Mr. Duke. I do, yes. I make it a point--I'm a marriage and 
family therapist, so I'm a little biased, but I make it a point 
to look at the veteran in the context of a family system. I do 
believe that I could do better by having better knowledge as 
far as what's out there for peer support. We've done a little 
networking today. I always appreciate those opportunities to 
identify those referrals and network with people. It's usually 
the relationship among the providers that we can really get 
things done.
    In fact, my personal experience working as a clinician is I 
can get on the horn. If I have a vet that needs hospitalization 
or needs specialized clinical services that are not going to be 
met at our level, I can get on the horn with Daryl Silva, who 
I've known since I was a private practitioner doing these 
services. I can't even remember how long ago. I can call him 
and he will pretty quickly direct me where I need to go.
    As we identify those key requirements and provide that 
information, I know that we try to do, we're mission oriented. 
We do what we need to do to help the vets out and so that's 
kind of our heart, our soul.
    Like I said earlier, it's very much like a military unit, 
so you got a lot of people working real hard and I think that 
our leadership is sensitive to that, but the fact that we are 
working with a population that has some very complex needs at 
times, diverging issues and I think that like it's there, but 
we will need to grow that.
    Mr. McNerney. With the Chairman's indulgence I have one 
more question.
    Mr. Denham. Absolutely.
    Mr. McNerney. Has there been an impact on the Mobile Vet 
Center program.
    Ms. Freeman. Not that I'm aware of, no.
    Mr. McNerney. How about reinstating the Mobile Vet Center.
    Ms. Freeman. I don't know--I'm sorry. I don't know if 
anybody on the panel here is addressing--I'm not aware of any 
cutback of any Vet Center Mobile program.
    Mr. McNerney. That's my last question. I'll yield back my 
time.
    Mr. Denham. Thank you. Thank you all of you for your 
testimony today. I'd ask you now to consent that all Members 
have five legislative days to revise and extend their remarks 
and include extraneous material. Without objection, so ordered.
    These hearings are obviously different from town halls. 
Town halls we have a much greater opportunity for participation 
from those in the audience, but we are your local members here. 
If there are questions that members of the audience would like 
to ask, if you submit them to our offices, everything that you 
send in will receive a written response.
    Once again, I'd like to thank each of our witnesses and 
both of our panels for joining today's conversation. It's an 
honor for me to serve as your representative in Congress and I 
look forward to taking your comments back to Washington and 
continuing to work to improve the lives of our worthy veterans 
and their families. This hearing is now adjourned.

    [Whereupon, at 4:42 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

        Prepared Statement of Hon. Jeff Denham, Acting Chairman
    Good afternoon and thank you all for being here. It is so good to 
be home.
    Before we begin, I would like to read a short statement from my 
friend and colleague, Ann Marie Buerkle, from Syracuse, New York. She 
is the Chairwoman of the Subcommittee on Health and intended to 
participate in today's hearing. Unfortunately, because of a personal 
family medical situation she could not join us today.
    ``I sincerely regret that I am unable to be with you and my 
colleagues Jeff and Jerry this afternoon in the ``other California'' to 
discuss the importance of Vet Centers and learn more about how they are 
being used and ways in which services can be improved.
    Vet Centers are a vital home front support system for our veterans 
and their families--a place where they can connect with their peers and 
give voice to their concerns as they go about the business of making a 
successful transition into community life.
    Your Congressman, Jeff Denham, is a valuable advocate for veterans 
in California's Central Valley and across the country. It is an honor 
for me to sit alongside him on the Subcommittee on Health. I look 
forward to hearing from him about your discussion today and how we can 
best work together to ensure a better future for America's veterans and 
their families. I wish all in attendance today the best and appreciate 
your taking the time to come. And, to all those who served our Nation 
in uniform, I thank you for your brave and loyal service to our 
country.''
    Though I wish Chairwoman Buerkle would have been able to be with us 
in Modesto today, I am proud to be joined by fellow Committee member 
and--fellow Californian, Jerry McNerney. Jerry represents our neighbors 
in the nearby 11th District and I am so glad he is able to be here to 
share in our discussion this afternoon.
    But, most importantly, I am delighted that you all are able to be 
here with us. It is an immense honor to represent you and all of the 
citizens of California's 19th District and I am grateful that you took 
time out of your busy schedules to meet with us here today as we bring 
Congress to Modesto.
    I was proud to serve in the United States Air Force, both on 
active-duty and as a member of the Air Force Reserves, for sixteen 
years. During that time, some of which was spent in combat in Desert 
Storm during the first Gulf War, I became intimately familiar with the 
service and sacrifices of those who volunteer to serve our Nation in 
battle. And, the tremendous respect I have for my fellow veterans is 
something I have carried with me since my own days in uniform.
    Last October, I once again returned to the combat theater, this 
time as a member of Congressional delegation to Afghanistan. In the 
next two years, several hundred thousand of our servicemembers will 
return home from overseas and what I saw on that trip makes it clear 
that now more than ever we must be vigilant about safeguarding the 
health and mental well-being of our servicemembers and veterans. And, 
in that endeavor, we have perhaps no greater tool than VA Vet Centers.
    The Vet Center Program was established in 1979 to help Vietnam 
veterans who faced a Department of Veterans Affairs that was in many 
ways unprepared to respond to their transition needs. For these 
veterans and for those of every conflict since, Vet Centers have 
provided confidential community-based readjustment counseling and 
referral services with an emphasis on peer-to-peer interaction. Free 
from the necessarily more bureaucratic structure of other VA programs 
and services, the Vet Centers have helped many who may have otherwise 
fallen through the cracks.
    As your Representative, I have heard time and time again from 
veterans and families in our community about the important work being 
done by the Central Valley's Vet Centers. We will hear from four such 
veterans today. We will also hear from individuals who work at the 
local VA Vet Centers, VA Medical Centers and County Veteran Service 
Officers. They work day-in and day-out to provide our veteran neighbors 
and their families with the supportive services they need to live 
healthy, productive lives.
    Last fall, I introduced H.R. 3245, the Efficient Service for 
Veterans Act, a bill to streamline the bureaucratic processes for 
veterans at Vet Centers by allowing the Vet Centers access to 
electronic records of servicemen and women. This legislation will be a 
focus of a Subcommittee on Health legislative hearing when Congress 
returns from recess on April 16.
    Today, we will discuss the services provided to our veterans and 
their families through Vet Centers - including recent initiatives to 
expand services to active-duty servicemembers and the immediate family 
of returning veterans. We will also evaluate the role of such centers 
within the larger VA health care system.
    A field hearing is a chance for the Subcommittee to really hear and 
understand the reality of the situation on the ground and for that 
purpose I could not be more pleased with the witnesses that have agreed 
to testify here today. Both the veterans and the professional staff on 
these two panels have insights across the spectrum of VA and the Vet 
Center Program and I look forward to their testimony.
    Before I yield to Mr. McNerney for his opening statement, I would 
like to take a moment to recognize all of the veterans in the room with 
us today. If you are veteran, please either raise your hand or stand so 
that we may recognize you. Thank you for your service.
    Again, I thank you all for joining us this afternoon.
    And now I would like to recognize Mr. McNerney for any opening 
remarks that he might have.

                                 <F-dash>
               Prepared Statement of Hon. Jerry McNerney
    Thank you, Mr. Denham.
    I would first like to thank the witnesses for coming today to 
appear before the Subcommittee. I know the issues pertinent to health 
care and benefits at the Department of Veterans Affairs are of utmost 
importance to you.
    On a personal note, as Ranking Member of the Subcommittee on 
Disability Assistance and Memorial Affairs-- which has oversight over 
VA's compensation, pension, and other benefits-- it is a special 
privilege for me to participate in this hearing so close to home. It's 
an honor to be able to address the issues facing veterans in the 
Central Valley and across the country, and I am glad the Committee is 
hearing directly from veterans and service officers in our area. When I 
am at home here in California, I hear frequently about the difficulties 
many veterans experience when transitioning to civilian life.
    Today we are here to discuss vet centers--the benefits that they 
have provided to our veterans and the important and growing role they 
will have in helping veterans who are recently returning from service. 
These centers provide an alternative environment outside of the regular 
VA system for a broad range of counseling, outreach, and referral 
services. Most importantly, vet centers provide an environment in which 
veterans can speak openly to other veterans about their experiences.
    There are approximately 300 vet centers across the country. We are 
here today to determine how vet centers can continue to fulfill their 
unique and critical role within the VA continuum of care, with a 
specific focus on readjustment counseling services provided at these 
facilities. Vet centers have expanded the services offered, and as a 
result, their workload continues to increase. This trend will likely 
persist as returning servicemembers, veterans, and their families deal 
with everything from mild readjustment issues to serious mental health 
challenges.
    Mental health care is at the forefront of our agenda, and for good 
reason. Of the veterans from recent conflicts who have accessed VA 
health care, more than 50% have displayed mental health issues, 
including post-traumatic stress, substance abuse, and mood disorders. 
Veterans' mental health conditions not only affect them, but also have 
a significant impact on their families. The VA has made some progress 
addressing the mental health needs of returning heroes, but far more 
needs to be done.
    A bill that I supported last Congress, the Caregivers and Veterans 
Omnibus Health Services Act, required the VA to establish a program to 
provide mental health services and readjustment counseling to veterans, 
their family, as well as members of the National Guard and Reserve.
    I have been concerned that the VA has not made sufficient progress 
implementing these provisions. I am working with a bipartisan group of 
my colleagues on this Committee to make sure that VA is meeting its 
obligations under the law. I will continue fighting for implementation 
of this program so that the needs of our Nation's veterans are met.
    Each generation of veterans has its own unique needs. It is 
important that vet centers are prepared to meet the needs of our new 
veterans and their families while still caring for those from previous 
conflicts.

    I look forward to hearing from our witnesses on:
    <bullet>  How we can maintain and improve services provided by Vet 
Centers;
    <bullet>  Progress being made towards full implementation of the 
Caregivers and Veterans Omnibus Health Services Act
    <bullet>  If we have appropriate facilities and staffing;
    <bullet>  What role other resources within our communities should 
play to help veterans and improve care; and
    <bullet>  What we should do to strengthen the invaluable peer-to-
peer counseling available through Vet Centers

    We must all work together to ensure that all of our veterans 
receive the care they deserve. One veteran falling through the cracks 
is one too many. I am glad the Committee is here today to learn about 
the specific issues affecting veterans in the San Joaquin Valley.
    I'd like to thank you all for your attendance here today.
    Thank you, Mr. Denham. I yield back.

                                 <F-dash>
                  Prepared Statement of Bruce Thiesen
    Members of the Subcommittee:
    Thank you for the opportunity to provide The American Legion's 
views on the Department of Veterans Affairs (VA) Readjustment 
Counseling Service (RCS).
    From 1969 through 1979, Congressional hearings were held which 
identified the presence of readjustment difficulties in some veterans 
returning from duty during the Vietnam era. In 1979, Congress passed 
legislation that required the Department of Veterans Affairs (VA) to 
provide readjustment counseling to eligible combat veterans. \1\
---------------------------------------------------------------------------
    \1\ Public Law 96-22, Title I,Sec.  103 (a)(1), 38 U.S.C. 1712A.
---------------------------------------------------------------------------
    In response to this legislation, the Department of Veterans Affairs 
Veterans Health Administration (VHA) established a nation-wide system 
of community based programs separate from Veterans Affairs Medical 
Centers (VAMC's). The separation was based partially on the premise 
that many Vietnam era veterans were so distrustful and suspicious of 
government institutions that they would not go to a VAMC for care.
    In 1981, VHA initiated a new organizational element, the 
Readjustment Counseling Service (RCS), to administer the Vet Centers 
and the provision of readjustment counseling. In April 1991, in 
response to the Persian Gulf War, Congress extended the eligibility to 
veterans who served during other periods of armed hostilities after the 
Vietnam era. On April 1, 2003, the Secretary of Veterans Affairs 
extended eligibility for Vet Center services to veterans of Operation 
Enduring Freedom (OEF) and on June 25, 2003, to veterans of Operation 
Iraqi Freedom (OIF) and subsequent operations within the Global War on 
Terrorism (GWOT). Family members of all veterans are eligible for Vet 
Center services including marriage and family counseling.
    On August 5, 2003, the Secretary of Veterans Affairs authorized Vet 
Centers to furnish bereavement counseling services to surviving 
parents, spouses, children and siblings of service members who had been 
killed while serving on active duty, including federally activated 
Reserve and National Guard Personnel.
    Vet Centers assist war-zone veterans and their families through 
various services including:

    <bullet>  Psychological counseling and psychotherapy (individual 
and groups)
    <bullet>  Screening and treatment for Post Traumatic Stress 
Disorder (PTSD)
    <bullet>  Substance abuse screening and counseling
    <bullet>  Employment/education counseling
    <bullet>  Bereavement counseling
    <bullet>  Military Sexual Trauma (MST) counseling
    <bullet>  Marital and family counseling
    <bullet>  Referrals (VA benefits, community agencies, and substance 
abuse)

    Over 40,000 veterans were counseled for PTSD at Vet Centers, and 
approximately 4,000 clients were seen for other clinical issues 
according to the Office of Health Information (OHI) information request 
results. \2\
---------------------------------------------------------------------------
    \2\ VA Office of Inspector General Healthcare Inspection, 
Readjustment Counseling Service Vet Center Report, July 20, 2009
---------------------------------------------------------------------------
    Readjustment counseling services offered at Vet Centers are not 
part of VA Medical Benefits; meaning you do not have to apply for 
benefits to receive services at a Vet Center. To be eligible for 
readjustment services you must have the qualifying periods and combat 
theaters including:

    <bullet>  World War II--Three eligible categories
        - European-African-Middle Eastern Campaign-Medal (Dec. 7, 1941 
to Nov. 8, 1945)
        - Asiatic - Pacific Campaign Medal (Dec. 7, 1941, to Mar. 2, 
1946)
        - American Campaign Medal (Dec. 7, 1941, to March 2, 1946)
    <bullet>  American Merchant Marines - In oceangoing service during 
the period of armed conflict,
    <bullet>  Korean War - June 27, 1950, to July 27, 1954 (eligible 
for the Korean Service Medal)
    <bullet>  Vietnam War - Feb. 28, 1961, to May 7, 1975
    <bullet>  Lebanon - Aug. 25, 1982, to Feb. 26, 1984
    <bullet>  Grenada - Oct. 23, 1983, to Nov. 21, 1983
    <bullet>  Panama - Dec. 20, 1989 to Jan 31, 1990
    <bullet>  Persian Gulf - Aug. 2, 1990, to a date yet to be 
determined
    <bullet>  Somalia - Sept. 17, 1992, to a date yet to be determined
    <bullet>  Operation Joint Endeavor, Operation Joint Guard, 
Operation Joint Forces
    <bullet>  Global War on Terrorism - Veterans who serve or have 
served in military expeditions to September 11, 2001, and before a date 
yet to be determined, Campaigns include:
        - Operation ``Enduring Freedom''
        - Operation ``Iraqi Freedom''
    <bullet>  Family members may receive bereavement services if a 
loved one died in the line of duty, though the death need not be combat 
related. Service may have been in peacetime or wartime. Family members 
of persons who died while in reserve or National Guard training also 
qualify.

    As part of the January 3, 2011 Department of Defense (DOD)/VA 
Integrated Mental Health Strategy (IMHS):

    <bullet>  Eligibility will be expanded to include active duty 
service members who served in OEF/OIF (including members of the 
National Guard and Reserve who are on active duty) for readjustment 
counseling and other services through RCS.
    <bullet>  VA's RCS Mobile Vet Center program expansion to increase 
access for active duty service members, National Guard and Reserve 
members, families and veterans in rural areas who are geographically 
distant from existing programs

Concerns
    Initially Vet Centers allowed veterans to receive ``peer to peer'' 
counseling from readjustment counselors who offered personal 
experiences, giving the counselors the ability to relate to the 
veterans daily struggles; however as time passed many Vet Centers were 
unable to keep up with the increased amount of clients and were unable 
to hire strictly veteran counselors. An emphasis should be placed on 
hiring Operation Enduring Freedom (OEF) Operation Iraqi Freedom (OIF) 
and Operation New Dawn (OND) veterans.
    According to the 2009, American Legion System Worth Saving report 
on Vet Centers, there is a growing need for increased funds within the 
Vet Centers to address staffing and facility needs. Many rural areas 
have Vet Centers serving as many as 23 counties due to the large 
geographic area served by the center.
    Vet Centers currently offer counseling services for MST for male 
and female veterans; however it is not noted in any VA literature that 
veterans may receive counseling for MST not incurred in a combat zone.
Recommendations
    The American Legion recommends that VA expand Vet Centers to the 
most rural areas to address access of care concerns of veterans living 
in the most rural areas. The American Legion also recommends VA allow 
compensation benefits information to be disseminated at all transition 
and access points, to include Vet Centers, so that all veterans are 
aware of all benefits they may be eligible for. Funds should be 
directed towards more holistic treatments for those veterans who are 
counseled for PTSD to include yoga and horseback riding. VA should 
update its literature to include information directing male and female 
veterans who are victims of MST that counseling services are available 
even if the incident did not occur in a combat zone.
    VA should recognize how precious an asset combat veterans are to 
the Vet Centers, especially those who successfully manage their PTSD 
and are willing to share those experiences with other veterans. VA 
should establish a training program that recognizes this experience as 
being equivalent and transferrable for those veterans seeking the 
required education to become a Peer to Peer readjustment counselor at a 
Vet Center.
    The American Legion recommends Readjustment Counseling Service 
conduct a needs assessment to ensure proper staffing (psychiatrists/
psychologists, licensed clinical social workers and ancillary staff) as 
well as protocols are being adhered to in terms of wait times and the 
number of counseling appointments are available to treat both veterans, 
as Vet Centers plan to expand to active duty, guard and reservists.
    The American Legion thanks this committee for the opportunity to 
provide this testimony today and we would be happy to answer any 
questions the committee might have.

                                 <F-dash>
                   Prepared Statement of Ryan Lundeby
    Members of the Subcommitee:

    My name is Ryan Lundeby I served in the Army as an Airborne Ranger. 
I was stationed at Ft. Benning, Ga with C-Co 3rd Battalion 75th Ranger 
Regiment from 2006 until 2010. While with 3rd Battalion I went on five 
combat deployments to both Iraq and Afghanistan. After I was honorably 
discharged I moved back to California with my wife.
    I found out about the Vet Center from good friend Randall Reyes. 
When I got out of the Army I did not even know that there was a place 
for Combat Vets like the Vet Center. After hanging out with the guys at 
the Vet Center I learned what they were about.
    My wife and I went to the Vet Center for marital counseling. I was 
having difficulty communicating with her. The number of divorces and 
marital problems among service members is outrageously high. I have had 
a ridiculous amount of friends get divorce in the military. We were 
determined to solve our problems. With the help of the Vet Center we 
learned how to effectively communicate with each other. My wife is my 
best friend and we have been together for almost three years. I could 
not be happier.
    The most common correlation in suicides is that the victim believes 
they are alone. No one is ever truly alone. There are always people 
left mourning the dead. A service member will not seek help unless they 
know it is confidential. They will refuse help and suffer because they 
do not want their chain of command finding out. Service members are 
afraid of the repercussions from their chain of command. The Vet 
Centers can help because they work in strict confidentiality. Also most 
of the staff at the Vet Center's are Combat Vets. It is much easier for 
a service member to talk to someone with a similar background, and can 
relate to what the service member has been through and is experiencing 
in their life.
    Less than one percent Americans today serve in combat. These brave 
men and women selflessly risk their lives defending our freedoms. In 
our history the price of freedom has never been laid on so few 
shoulders. We owe them more than our thanks. We owe our Combat Veterans 
every opportunity to readjust to civilian life. With the help of 
properly staffed Vet Centers we can help our Combat Veterans acclimate 
to their civilian life.

    Sincerely

    Ryan Lundeby

                                 <F-dash>
                  Prepared Statement of Phillip White
    Ladies and Gentleman:

    I am here today to talk about how we can better veteran's benefits. 
Not to argue politics, the fine panel in front of me was elected by the 
people to do so. Today the media and many of the issues of the day are 
surrounded in pettiness. We owe a debt to the men and women who gave 
some and especially those that gave all. To start to pay that debt, 
it's time we take the arguments to a place of relevance. I am proud to 
say that Veterans is one of those places, as well as Social security, 
Medicare and the right to bear arms. We are seeing veterans and active 
duty under tremendous strain. This can be evidenced at the growing 
unemployment and homelessness among our vets. Not to long ago in 
Afghanistan, staff sergeant Bales acted unmercifully in a way that can 
only be described as a travesty. My family's prayers are with all the 
Afghanistan people and the family of Mr. Bales. Incidences like these 
should not be fuel for how to punish, rather it should be an eye 
opening moment that congress should be pressed to do more to lessen 
this burden of our troops and vets. There are more veterans than just 
active duty who are acting out in these ways. I know of a close friend 
who is on death row for murder and another that is facing capital 
murder. These are not the only ones, as many more veterans are 
succumbing to the pressure. As a nation we must do more to help 
veterans who are facing these traumas.
    Veterans who are on the Gibill have had their ``break pay'' taken 
from them. (this is where in between waiting for semesters they lose 
their lifeline of money). The first thing that vets have been telling 
me when I say what you would fix is this. To triple the trauma of these 
heroes' the economy is in the gutter. Veteran unemployment is two to 
three times the level of normal unemployment. This loss of income is 
putting unneeded strain on the family life of vets. Taking what should 
be a safe haven called home and turning it into a breeding environment 
of failure. Vetcenter's do a great job, on raising awareness, how to 
manage this strain within the home. There is only so much that can be 
done with counseling. At this point it is on congress to do the right 
thing and restore what was taken, after all this is what we pay into.
    Upon returning from Iraq in 2003, I was given 90 days to get out of 
the military or resign a contract. The shame I felt from my time 
overseas I knew four more years was not an option for me. My DD214 did 
not have my OIF/OEF on it. This was because the person in charge did 
not see a need for it, I tried to get them to change it and they said 
``they would have to extend my contract to do it''. Another cause for 
concern is they asked if I was having difficulty sleeping or adjusting 
back. My answer was ``yes'', once again they said they would have to 
put me on a medical hold. I had so much shame that I did not want to 
stick around the Marine Corps and have my head messed with. So I 
changed my mind immediately, told them I was fine and the DD214 did not 
matter and left. This is a perfect example on why are combat vets 
should be screened on their way out by an independent agency. This 
could also be a perfect fit for the mission of the Vetcenter's across 
America. The Vetcenters could be a crucial factor in having success on 
the transition. They could identify problems and conduct follow up at a 
local Vetcenter, once the veteran reaches his final destination in 
home. This would help the veteran identify where he/she could go in 
time of need and highlight what the government does well. An increase 
in resources in this department is a must. To filter through the weekly 
reports and logistically process every veteran properly resources will 
be the key.
    My experience with the local vetcenter is that they are masters 
with doing a whole lot, with very little. They accomplish this mission 
with great relationships with programs such as Rivers of Recovery 
(ROR), Boots and Saddles and many more. I myself have been a part of 
ROR and spent the day with boots and saddles. ROR has an outstanding 
mission that can have a life altering experience. Dan Cook the founder 
is a different kind of human being, his compassion towards vet's is 
hard to match. My first day on the river he had just been given a new 
fly rod, that was designed for fishing with one arm. He spent the whole 
day using only his teeth and one arm, the other was behind his back. I 
asked ``Dan why the one arm'' his response is a typical Dan response, 
``not all combat vets have two''. The cost of this experience is pretty 
close to nothing, the veteran only needs to provide a ride to the 
airport. This is another thing that the vetcenter can take ownership of 
with the proper resources. Many returning and older vets have many 
disabilities that do not give them the ability to drive. Transportation 
to events would open the door for all vets to discover that they are 
not alone and people care. The vetcenter and ROR have forged a great 
relationship and without the center I do not know if ROR would be a 
great part of my life today.
    Today's environment of fiscal mess is unprecedented. I do not have 
the answers as to how to accomplish the increase. I can say that is 
easier to get on welfare than it is to get veterans benefits. To me 
this seems backwards but obviously I am biased in my opinion. I can 
only say that I am grateful for everything I have. The veterans that 
are returning now are in grave trouble. The same system is in place 
with two possibly three times the veterans waiting in line. I thank you 
for the time today and look forward to any future talks.

    Sincerely

    Phillip Leon White

                                 <F-dash>
                  Prepared Statement of Chris Lambert
    I will be stating a brief history of World War 1 to my experience 
in Vietnam. I will also have a picture board showing the convenience of 
VA facilities versus Vet Centers. I will further discuss the vets fears 
and triggers which have been eased by their experiences at the Vet 
Centers and/or VA hospitals..
    There will also be a picture board showing me from before and after 
military service that will show the visual aftermath of combat trauma 
as seen especially my eyes and my combat comrads.
    Chris will focus on what is perceive as a ``Cookie-cutter 
Treatment'' that has been siminated at the VA versus personal attention 
received at the Vet Center. How can one assign a general accepted 
number of number to an individual???
    Closing will be with a short poem that encompasses all the above 
information for those previously served veterans, and those in our 
future.

    Respectfully,

    Chris Lambert Jr.
    Combat Veteran

                                 <F-dash>
             Prepared Statement of Carolyn S. Hebenstreich
    Mr. Chairman and members of the Sub-Committee, thank you for the 
invitation to appear before you to discuss Veterans VET Centers. I am a 
certified Veterans Service Representative for Stanislaus County, and 
have been serving Veterans in this County for more than twenty-two 
years. Prior to coming here, I worked for the VA Medical Center in 
Livermore, CA, for approximately twelve years, serving in several 
different positions.
    At the time I was hired as a Veterans Representative, I was aware 
of Vet Centers, but did not have much information about them. In 1989 
when I took this position, the closest Vet Centers were in Fresno, CA, 
and Concord, CA, both over 80 miles from here. The closest VA Medical 
Center was over fifty miles from here in Livermore, CA. The Vet Center 
in Concord did contract with counselors in Stockton, CA, and for a 
while, even sent some to our VSO here in Modesto. Around 1993 I started 
requesting to have a Vet Center located here in Modesto to help our 
Veterans, as we were filing numerous claims for PTSD. The VAMC Palo 
Alto opened a clinic here in Modesto with mental health availability 
around 1995-1996, but they were extremely overloaded, and getting an 
appointment there was very difficult. The Concord Vet Center began 
contracting with someone in Modesto to see our Veterans: although it 
was helpful, it was not as helpful as a real Vet Center would have 
been. Needless to say, we in Stanislaus County are very grateful to 
finally have a Vet Center established here. It is a tremendous asset to 
our Veterans, and the Counselors are always willing to go the extra 
mile to assist our Veterans and their families.
    After working with VAMC's, VA Regional Offices, and Vet Centers for 
many years, I still find one major thing that does not happen within 
the Veterans Administration: COMMUNICATION. Whether it be Federal, 
State, or County government, we are here to serve Veterans, and we need 
to communicate about our services to each other, as well as to our 
Veterans and their dependents.
    I believe the VAMCs could do a better job working with the Vet 
Centers. I personally have had Veterans here in my own County be put on 
Fee Service contracts for PTSD counseling, instead of being referred to 
the local Vet Center. I truly think this is all due to lack of 
communication.
    Please understand, I have been serving Veterans for over thirty-
five years, and I have seen the VA change for the better in many ways, 
and I applaud them for making these changes to improve their service to 
our Veterans. But, the VA still needs to do more in the way of 
communication, and becoming ONE VA.
    Thank you again for this opportunity to appear before you.

                                 <F-dash>
                    Prepared Statement of Ron Green
    I would like to thank you for the opportunity to be here today. My 
name is Ronald Green. I am the San Joaquin County Veterans Services 
Officer. My purpose for being here is to advocate for improvements in 
medical, substance abuse, and mental health care services for veterans 
in our region. Efforts are underway to improve and expand Veteran 
Services but, I believe that the current efforts need to be expedited 
if possible, and that more can be accomplished. I support increasing 
the number and staffing of the Vet Centers, I support expediting 
construction of the expanded specialty clinic and long term care 
facilities in French Camp, and I support opening enrollment in the V.A. 
Health Care System to all veterans with qualifying discharge and 
service.
    Before the establishment of the Modesto Vet Center, the Central 
Valley between Sacramento and Fresno was bereft of a vet center. 
Service was provided on a contract basis by the Concord Vet center. 
Even now the Vet Center program needs to be increased with either more 
Vet Centers or increased staffing or both. As an example of the need, 
the Vet Center Director from Sacramento has advised that he is 
exploring the possibility of a twice a month outreach in Lodi in San 
Joaquin County. He also said that he was doing other outreach 
elsewhere.
    Demand for Vet Center services is increasing for two principle 
reasons. The first reason is the return of OIF/OEF veterans and 
deployed reservists and National Guard. In the past, CDVA had provided 
us with information about recently discharged veterans. Based on that 
we were able to estimate that the number of new veterans returning to 
San Joaquin County each year would be between 420 and 450 each year.
    The second reason is the number of times possible mental health 
issues have been raised during our claims preparation process. 
Claimants with mental health issues are provided with contact 
information and literature regarding the Vet Center and the VA Clinic 
and they are advised to contact them for help. The number of referrals 
from our office alone averages over 20 per month.
    There are estimates that 10-20% of returning OIF/OEF combat 
veterans are afflicted with PTSD. This is compared with 10% for Desert 
Storm and 30% from Vietnam. PTSD has been a problem for veterans of 
other wars but the extent has been difficult to document. . I have 
three World War II veterans that I assisted who come to mind. The first 
was a Pearl Harbor Survivor; the second was in the Battle of the Bulge, 
while the third was on a destroyer hit by a Kamikaze plane.
    PTSD not only affects these veterans but also leaves in its wake, 
failed relationships, and substance abuse.
    The VA Health Care System and especially the VA Palo Alto Health 
Care System are leaders in dealing with PTSD. Palo Alto is the parent 
medical center for the three CBOC's in San Joaquin, Stanislaus and 
Tuolumne Counties. All provide mental health care. In addition to these 
three clinics, there are approved plans for an expanded medical and 
behavioral health clinic and long term care facility to be constructed 
in the Central Valley on 52 acres of land the VA has purchased in 
French Camp. This construction needs to start as soon as possible 
especially considering that the average age of the veteran population 
is about 60 years and that the size of the service population is close 
to 80,000. San Joaquin County partnered with the VA to construct a 
primary care clinic that opened approximately 5 years ago. The number 
of veterans utilizing that that clinic has already exceeded the 
capacity of the facility and plans are underway to build and open an 
expanded modular facility in the next year.
    I am also advocating that enrollment in the VA Health Care System 
needs to be open to all veterans with qualifying discharges and 
service. It should be sufficient that a veteran has served honorably 
for the required length of time in order to enroll in the VA Health 
Care System. Assignment of a maximum income for enrollment makes the 
system tantamount to a welfare program. It should be enough that the 
veteran has served.
    Again I would like to thank you for the opportunity to be here 
today. As I have said I support an increase in the Vet Center Program. 
I favor an accelerated schedule for the completion of the expanded 
skills clinic in French Camp. And lastly I would like to see the 
elimination of income limits for enrollment in the VA Health Care 
System.

                                 <F-dash>
                Prepared Statement of Roger Savage Duke
    Good Afternoon Congressman Denham, Congressman McNerney . . . :
    Thank you for allowing me to appear before you today to discuss the 
Modesto Vet Centers' practices in providing readjustment counseling 
services to servicemembers, veterans and their families within the 
larger VA health care system.
    Let me begin by providing you a program history. In addition, I 
hope to also provide you with an appreciation of the Vet Center 
Culture, our Clinical Services, and to finally address Modesto Vet 
Center's collaboration with the VAMC and other partners in our 
community.
Program History
    VA's Vet Centers are a different kind of environment--a caring, 
non-clinical setting--in which Veterans can receive care. Vet Centers 
are community-based counseling centers, within Readjustment Counseling 
Service (RCS), that provide a wide range of social and psychological 
services including professional readjustment counseling to Veterans and 
families, military sexual trauma (MST) counseling, and bereavement 
counseling for families who experience an active duty death. Our 
program in Modesto, like many throughout the country, also facilitates 
community outreach and the brokering of services with community 
agencies that link Veterans with other needed VA and non-VA services. A 
core value of the Vet Center is to promote access to care by helping 
Veterans and families overcome barriers that may impede them from using 
those services.
    There are currently 300 Vet Centers located in all 50 states, the 
District of Columbia, Puerto Rico, Guam, and American Samoa.
    The Vet Center program was the first program in VA, or anywhere, to 
systematically address the psychological traumas of war in combat 
Veterans, and this a full year before the definition of Post-Traumatic 
Stress Disorder (PTSD) was published in the Third Edition of the 
American Psychiatric Association Diagnostic and Statistical Manual (DSM 
III) in 1980.
    Modesto Vet Center's field-based outreach, which will be addressed 
by Mr. Randall Reyes, and the Vet Center's ability to rapidly respond 
to acute PTSD and other post-war readjustment difficulties, makes it a 
great compliment to existing VHA mental health services. As a young 
soldier who personally experienced the stressors of combat in Vietnam 
and then later as a Marine Corps Ground Combat Officer of Fleet Marine 
Force line units, I can attest to the need to provide the early 
intervention and outreach that Vet Centers provide. I have seen the 
tremendous positive transitions of our military forces in my military 
career. However, the issue of overcoming stigmatization remains a 
constant challenge for those of us providing clinical services. In 
early 2006, while contracted as an embedded psychological counselor for 
a battle-scared National Guard Infantry Company, I first heard of the 
Vet Centers. The Modesto Vet Center had not even been formed when 
outreach workers from Fresno and San Jose Vet Centers reached out to 
this Battalion of warriors. Since coming on line in Modesto some four 
years ago the Modesto Vet Center has been a welcomed support for combat 
veterans and their families. As an outside observer to a very busy ``in 
the trenches'' provider, I have been very impressed with the caliber of 
professionals at the Modesto Vet Center and their willingness to reach 
out to the community. When my son Jeremy returned from Afghanistan 
2004, he had earned his Combat Infantry Badge with 10th Mountain 
Division. He was one of those who benefitted from early intervention 
and while in the National Guard, was able to utilize Modesto Vet 
Center's Readjustment Counseling. He subsequently returned to active 
duty as an Army Medic and returned last year from Iraq. He has told me 
how appreciative he is that he could talk to someone about things he 
couldn't even share with his own family. I believe the Vet Centers, to 
include the Modesto Vet Center, provide a proven `best practice' model 
in fostering peer-to-peer relationships for those with combat stress 
disorders.
Modesto Vet Center Culture
    Modesto has adapted its program to continually optimize this 
practice within the context of the community. The unique culture of the 
Vet Center is evident in Modesto. It is a rapidly responsive team that 
``leads by example.'' I feel very privileged to work at a Vet Center 
that appreciates and utilizes my strengths and passion for assisting 
combat Veterans. Headed by our Team Leader, Steve Lawson, the Modesto 
Vet Center currently employs 3 counselors including one Licensed 
Clinical Social Worker and one Licensed Marriage and Family Therapist. 
We have one office manager and one Global War on Terrorism (GWOT) 
Outreach Specialist. In addition, we partner with VA's Vocation 
Rehabilitation, Veterans Service Organizations, California's Employment 
Development Department, and the Judicial Outreach of the VA in Menlo 
Park. Our community partners also include private citizens and 
community non-profit organizations offering socialization and 
recreational activities so vital to maintaining mental health. Examples 
include inland and ocean fishing and crabbing excursions, sailing, 
horseback riding, and bowling. The area served combines both sprawling 
urban and rural communities. The Modesto Vet Center relies on the 
relationship with these communities to support and sustain important 
aspects of our Vet Center culture.
Clinical Services
    Readjustment counseling in Modesto is pretty typical of the 
clinical services offered by the 300 Vet Centers nationally. I and my 
colleagues provide a wide range of psychotherapeutic and social 
services to eligible Veterans and their families in the effort to make 
a successful transition from military to civilian life. They include:

    <bullet>  Individual and group counseling for Veterans and their 
families
    <bullet>  Family counseling for military related issues
    <bullet>  Bereavement counseling for families who experience an 
active duty death
    <bullet>  Military sexual trauma counseling (MST) and referral if 
required (gender specific)
    <bullet>  Educational classes on PTSD, Couples Communication, Anger 
and Stress Management, Sleep Improvement, and Transition Skills for 
Civilian Life
    <bullet>  Substance abuse assessment and referral
    <bullet>  Employment assessment and referral
    <bullet>  Screening & referral for medical issues, including mTBI, 
depression, etc.
    <bullet>  VBA benefits screening and referral
Safety and Confidentiality
    It is my belief that it's not so much the uniqueness of clinical 
services that sets Vet Centers apart from other Community-based 
Outpatient clinics, as it is the combat veteran's sense of safety and 
belonging experienced when they first come through the doors of the 
center. I have heard repeatedly by Veterans, both young and old, that 
they have a ``connection'' to one another. You can see this played out, 
whether in a PTSD process group or in a game of dice. The ritual is the 
same. You are a fellow warrior and whatever you're going through, you 
belong. The role that staff plays in providing this safety goes beyond 
confidentiality, which is of paramount importance. There is an elevated 
sense that staff respects the uniqueness of all combat Veterans and 
hold in strictest confidence all information disclosed in the 
counseling process. From orientation to closure the message is the 
same: No information will be communicated to any person or agency 
outside of RCS unless specifically requested by the Veteran, or as 
excepted in current clinical practices.
Collaboration with VAMC and Community Partners
    <bullet>  Bi-directional referral process
    <bullet>  Participation in VA Medical Centers Mental Health 
Councils
    <bullet>  Joint Participation in VA and Community Events
    <bullet>  Medical Centers provide to Vet Centers:
    <bullet>   External clinical supervision at a majority of Vet 
Centers
    <bullet>   Clinical Liaisons who coordinate the care for complex 
cases (judicial outreach) and shared Veterans and provide quality 
reviews of Veteran suicide and other critical events.
    <bullet>  Administrative Liaisons to support fiscal, human 
resource, procurement, and engineering service functions.
    <bullet>  Both Modesto Vet Center and VAMC have jail access to 
incarcerated Veterans

    Community Partnerships are integral to successful support for 
veterans while they are in the readjustment process. Our counselors 
have been involved in Restorative Justice along with other stake 
holders in the community. From time to time, Vet Center Counselors have 
provided expert advice to the courts on PTSD assessment and treatment 
in support of California Penal Code 1170.9. I have been invited to be a 
regular instructor to the Law Enforcement Academy's Crisis Intervention 
Training to provide a perspective to crisis negotiators on the issues 
facing combat veterans as they return and readjust to their 
communities. This relationship has played out in a positive manner on 
the streets of Modesto where, in one example, a combat Veteran was 
given a referral to our office in lieu of possible involvement with law 
enforcement. The Stanislaus County Mental Health Forensics Program 
Manager has praised this collaborative community partnership and the 
role the Modesto Vet Center has played in elevating cultural competence 
towards Veteran issues, especially those returning from combat.
    In my own experience, I have appreciated the challenges that come 
with serving combat Veterans. Whether advocating in court, arranging 
reintegration for a wayward active duty soldier, providing bereavement 
services for family members, or listening and comforting a World War II 
Veteran crying over loses felt over 60 years ago, the Modesto Vet 
Center is there, ``Keeping the Promise.''
    Thank you again for the opportunity to appear before you. I am now 
prepared to answer your questions.

                                 <F-dash>
                 Prepared Statement of Randall R. Reyes
    Good Afternoon Chairwoman Buerkle, Ranking Member Michaud, and 
members of the Subcommittee. Thank you for the invitation to discuss 
the Modesto Vet Center's efforts to provide the best care possible to, 
not only our Central Valley Veterans, but also to those who are 
discharged from active duty and move to different parts of the United 
States.
    I am a 13 year Veteran of the United States Marine Corps. I have 
served in areas such as the Horn of Africa, Afghanistan, and Iraq. I 
was introduced to the Vet Center by my father, who is a Vietnam Veteran 
and a Vet Center client. I also have other relatives and friends that 
have served in Iraq and Afghanistan who use Vet Center services. I have 
seen firsthand the difference the Vet Centers have made in their lives. 
I believe in the Vet Center's mission, and what VA officials do for 
Veterans who have experienced trauma, and for their families, who want 
to be there to offer support.
    VHA's Readjustment Counseling Service (RCS) has implemented 
initiatives to ensure that Veterans have access to Vet Center services. 
Following the onset of the current hostilities in Afghanistan and Iraq, 
the Vet Center program hired 100 Operation Enduring Freedom and 
Operation Iraqi Freedom (OEF/OIF), and later Operation New Dawn (OND), 
Veteran Outreach Specialists to proactively contact their fellow 
returning Veterans at military installations across the country. 
Veterans such as myself, with military and combat experience, provide 
an instant connection to returning Servicemembers, making it easier to 
build rapport, overcome stigma, earn trust, and ultimately engage in 
discussions about access and referral to services.
    In my role as outreach specialist, I proactively seek out my fellow 
Veterans where they are in the community. This usually includes 
participation in a variety of Federal, State, or locally organized 
Veteran-related events or actually going to places Veterans and 
Servicemembers frequent, such as their Unit Armories or area 
Universities. I also ensure that the family members of eligible 
Veterans are aware of the services that the Vet Center can provide. I 
have worked closely with other VA programs, such as Vocational 
Rehabilitation, VHA Enrollment, and Homeless Veterans Programs, in 
hopes that any Veteran attending an outreach event can receive 
information and referral to all VA services.
    The Modesto Vet Center also has access to the Mobile Vet Center 
Program. Mobile Vet Centers provide early access to returning combat 
Veterans via outreach at a variety of military and community events. 
The vehicles extend Vet Center outreach to more rural and highly rural 
communities that are isolated from existing VA services. Furthermore, 
the vehicles are a part of the VHA's Emergency Response to leverage 
readiness in times of national and local emergencies. Each Mobile Vet 
Center has space for private counseling and is equipped with a state-
of-the-art satellite communications package that includes fully 
encrypted teleconferencing equipment, access to all VA systems and 
connectivity to emergency response systems.
    The Modesto Vet Center has used local Mobile Vet Centers at various 
events such as homeless Veteran stand downs. In another instance, 
Mobile Vet Centers and staff provided outreach and referral to more 
than 1500 returning members of the Idaho National Guard after a recent 
combat deployment.
    Finally, Veterans and family members have access to the Vet Center 
Combat Call Center or 1-877-WAR-VETS. It is an around-the-clock, 
confidential call center where eligible combat Veterans and their 
families can call to talk about their military experience or any other 
issue they are facing in their readjustment to civilian life. The staff 
is comprised of combat Veterans and family members of combat Veterans, 
from several eras. This benefit is earned through the Veteran's 
military service.
    The Call Center, which opened in 2009, is the product of VA 
leveraging technology to condense a national system of toll free 
numbers into a single modern center located in Denver, CO. Call Center 
staff has state-of-the-art technology to provide warm handoffs to the 
VA National Crisis Hotline, the National Caregivers Support Hotline, 
and the Dayton VA Primary Care Triage Hotline when medical care is 
needed.
    Thank you again for the opportunity to testify. I am prepared to 
answer any of your questions.

                                 <F-dash>
             Prepared Statement of Elizabeth Joyce Freeman
    Good Afternoon Congressman Denham and Congressman McNerney. I 
appreciate the opportunity to discuss the VA Palo Alto Health Care 
System's (VAPAHCS) efforts to provide the best care possible to our 
Central Valley Veterans as well as all Veterans in our catchment area 
from Sonora to Monterey. I want also to address the excellent 
collaboration we have with our Vet Centers at Redwood City, San Jose, 
Capitola and Modesto.
    Let me begin by giving you an overview of VAPAHCS, one of the 
largest and most complex VA health care systems in the country.
Overview
    VA Palo Alto Health Care System consists of three inpatient 
divisions located at Palo Alto, Menlo Park, and Livermore, in addition 
to seven Community-Based Outpatient Clinics (CBOC) in San Jose, 
Monterey, Capitola, Fremont, Stockton, Sonora, and Modesto. Our primary 
hospital is located at Palo Alto and, like most VA hospitals, is a 
teaching hospital, providing a full range of patient care services, as 
well as education and research. Comprehensive health care is provided 
through primary, tertiary and long-term care in areas of medicine, 
surgery, psychiatry, physical medicine and rehabilitation, neurology, 
oncology, dentistry, geriatrics, and extended care.
    VAPAHCS has more than 800 operating beds, including three community 
living centers (nursing homes) and a 100-bed homeless rehabilitation 
center on the Menlo Park campus. VAPAHCS is home to a variety of 
regional treatment centers, including a Spinal Cord Injury Center, a 
Polytrauma Rehabilitation Center, the Western Blind Rehabilitation 
Center, a Geriatric Research, Educational and Clinical Center, a 
Homeless Veterans Rehabilitation program, and the Men's and Women's 
Trauma Recovery Programs. Many of these programs also treat active duty 
military Servicemembers under sharing agreements with the Department of 
Defense, under Section 1631(b) of Public Law 110-181.
Partnership with Vet Centers
    Our VAPAHCS clinicians work hand-in-hand with the staff at the 
Modesto Vet Center. In fact, we actually housed the Vet Center in our 
facilities while the new Vet Center was being built. A large number of 
Veterans are seen at both VA sites- VA Palo Alto Health Care System and 
the Vet Center--which often leads to positive outcomes. For example, 
recently one of our mental health social workers received a call from a 
Vet Center counselor, who said he was with a suicidal Veteran. Thanks 
to the close collaboration and trust between the two facilities, 
literally within hours the Veteran was admitted at VA Palo Alto's acute 
care mental health hospital. Following his in-patient stay, the Veteran 
received follow-up services from not only a VAPAHCS clinician, but the 
Vet Center as well. The Veteran continued his group counseling at the 
Vet Center and individual counseling from the VAPAHCS.
    Additionally, it is common for Vet Centers to refer Veterans to 
VAPAHCS for pharmaceuticals. A robust consultation process also occurs 
between VAPAHCS and Vet Center clinicians regarding clients, when 
needed.
    Another way the VAPAHCS and Vet Centers collaborate is in outreach. 
It's typical at community events to see both the Mobile Vet Center and 
VAPAHCS staff set up to enroll and serve Veterans. Furthermore, 
outreach staff from VAPAHCS provide information about Vet Centers when 
they attend events and Vet Center staffs actively encourage eligible 
Veterans to enroll in VA health care.
Telehealth in the Central Valley
    To augment our direct clinical care, VA is expanding our ``real-
time'' telehealth programs throughout the health care system and, 
particularly, in the Central Valley. Along with telehealth programs for 
pain management, GI and rheumatology, in Modesto, we offer telehealth 
opportunities for Veterans in the mental health arena. In fact, in 
fiscal year (FY) 2011, more than 80 percent of our telehealth 
encounters were for mental health. We provide the entire range of 
mental health services, everything from medication evaluation and 
management to group therapy, and exposure therapies for post-traumatic 
stress disorder (PTSD). We also offer Polytrauma Network Site initial 
traumatic brain injury evaluations at Modesto through real-time 
telehealth.
    According to a nurse practitioner providing care to Modesto 
Veterans, on average, pain scales from Veterans attending the tele-
rheumatology clinic have decreased dramatically, which indicates better 
pain management through telehealth. Telehealth opens opportunities for 
Veterans, who often in the past, could not access the care because they 
had to travel long distances or who found it difficult to drive because 
of physical or mental impediments.
Research at the VA Palo Alto Health Care System
    Additionally, we maintain one of the top three research programs in 
VA, with extensive research centers in geriatrics, mental health, 
Alzheimer's disease, spinal cord regeneration, schizophrenia, 
rehabilitation, and HIV research. Enhanced by our affiliation with the 
Stanford University School of Medicine, our research program provides a 
rich academic environment including medical training for physicians in 
virtually all specialties and subspecialties. Over 1,300 University 
residents, interns and students are trained each year.
    One area of note is the work we have done to significantly improve 
the quality of life for Veterans with eye and vision injuries incurred 
during their service in Iraq, Afghanistan and elsewhere. Drs. Gregory 
Goodrich and Glenn Cockerham's research efforts began in 2004, when 
they observed that Servicemembers exposed to combat blasts also had 
disorders of visual and binocular function, as well as occult ocular 
injuries. Many or most of these findings were not diagnosed in transit 
through the DoD and VA health care systems, and published scientific 
literature did not address this population or even discuss the visual 
system in traumatic brain injury. Their seminal research not only led 
to the development of improved eye and vision injury detection, but 
also improved examination techniques and created innovative 
rehabilitation programs.
VA Expansion in the Central Valley
    With a construction budget of more than $1 billion, VAPAHCS has 
launched an ambitious building project on its Palo Alto campus, 
including a new acute care mental health facility that will open this 
summer. The plan also includes VA's largest rehabilitation center, 
which will combine polytrauma and blind rehabilitation; additional 
research space; and additional lodging facilities for Veteran patients 
and family members. The lodging was donated by the Pentagon Federal 
Credit Union Foundation.
    These projects are driven by increased Veteran demand, seismic-
related upgrades, and the desire to provide state-of-art buildings, 
technology, and equipment to care for our Veterans. The Palo Alto 
campus is also where our Modesto Veterans come for their extended 
clinical care, which cannot be provided at Modesto or Livermore.
    We are investing money, time, and clinical skill in Modesto, where 
we have broken ground on a brand new CBOC that will more than double 
the square footage of the current clinic. The 12 year, $10.3 million 
lease contract, awarded to California Gold Development Corporation from 
Sonora, CA, will also create at least 100 jobs during the site 
development, construction, and activation of this project.
    The new clinic will be located at 1115 Oakdale Road, and will offer 
primary care, mental health services, limited specialty care, and 
ancillary and diagnostic services. The 23,250 square feet clinic will 
be a Leader in Energy and Environmental Design (LEED) silver-certified 
building, substantially increasing the treatment capacity for the 7,000 
Veterans currently served in the Central Valley and providing 150 
parking spaces. VA services currently offered in Modesto will remain 
operational until the expected completion of the new facility in spring 
2013.
    In 2013, we are also expanding our CBOC in Stockton, where we will 
add clinical programs such as physical therapy, occupational therapy, 
and specialty medical services with telemedicine technology.
    We have made significant progress towards the development of the 
new outpatient clinic and community living center as part of the 
Livermore Medical Center realignment. In June 2009, VA selected HDR, 
Inc. of Sunnyvale, CA, to provide architectural and engineering 
services for the new clinic and community living center. Programming 
and design of the new facilities is actively underway and will continue 
through 2012. Additionally, on Sept. 7, 2011, VA officially completed 
the purchase of the 52-acre land parcel in French Camp adjacent to the 
San Joaquin General Hospital, which will be the site of the new 
facilities
    Throughout our efforts, VA officials have made every effort to 
include Veteran stakeholders, both on the local and national levels, at 
each step of the process. We encourage Congress, Veterans and other 
stakeholders to view the exciting developments planned for Veterans to 
visit our website at: http://www.paloalto.va.gov/construction.asp.
    Thank you again for the opportunity to highlight some of the 
accomplishments of the Palo Alto Health Care System's care for our 
Nation's Veterans. I will be happy to answer any questions you have.

                                 <F-dash>
                        Statement For The Record
  MADHULIKA AGARWAL, M.D., MPH DEPUTY UNDER SECRETARY FOR HEALTH FOR 
POLICY AND SERVICES VETERANS HEALTH ADMINISTRATION (VHA) DEPARTMENT OF 
                         VETERANS AFFAIRS (VA)
    The Department of Veterans Affairs (VA) is providing, for the 
record, the following statement on implementation of Sections 304 and 
401 of Public Law (P.L.) 111-163, the Caregivers and Veterans Omnibus 
Health Services Act of 2010.
Section 304
    The key provisions in Section 304 of P.L. 111-163 relate to 
providing family counseling services for immediate family members of 
eligible Operation Enduring Freedom/Operation Iraqi Freedom/Operation 
New Dawn (OEF/OIF/OND) Veterans and for the provision and training of 
Veteran Peer Counselors to support this cadre of Veterans.
    Section 304 has many provisions in common with Section 107 of P.L. 
110-387, which required VA to establish a pilot program to assess the 
feasibility and advisability of providing peer outreach services, peer 
support services by licensed providers, readjustment counseling 
services, and other mental health services to OEF/OIF/OND Veterans. In 
January 2011, VA began the pilot program required by Section 107 of 
P.L. 110-387. Given the similarity of these requirements to certain 
requirements in Section 304 of P.L. 111-163, VA wanted to ensure that 
new programs developed to comply with Section 304 did not unnecessarily 
duplicate or overlap programs required by Section 107. Now that the 
pilot is underway, VA is able to review and evaluate those elements of 
Section 304 that may require further enhancement.
    Many of the requirements in Section 304 were in place or underway 
when implementation of P.L. 111-163 began. This statement will mention 
those briefly and then highlight actions VA has taken to enhance and 
expand the program since the passage of P.L. 111-163.
    Vet Centers have been authorized to provide the full range of 
readjustment counseling services, including working with families, to 
eligible OEF/OIF/OND Veterans and their families since 2003. In 
conjunction with Vet Center services, mental health clinicians at other 
VHA facilities provide a full range of general and specialty mental 
health services to eligible Veterans of all eras including evidence-
based psychotherapy, residential treatment programs, and crisis 
intervention services.
    The Vet Center Program continues to provide peer, or Veteran to 
Veteran, outreach services to OEF/OIF/OND Veterans and their families 
since the Secretary of Veterans Affairs authorized the program to do so 
in 2003. Currently, Veteran Outreach Specialists within the Vet Center 
Program proactively contact their fellow returning Veterans at military 
demobilization sites, including National Guard and Reserve locations, 
and in their communities. These individuals, all of whom served in 
recent combat zones, provide information and referral to Vet Center 
services as well as connection to other VA services.
    Vet Centers provide a full range of psychosocial services under the 
umbrella of readjustment counseling and are able to facilitate the 
Veteran-to-Veteran connection due to the high percentage of Veterans 
employed by the program. This has been a tenet of the Vet Center 
program since its inception over 30 years ago.
    Since the passage of P.L. 111-163, VA has continued improving and 
expanding its program to provide services to eligible OEF/OIF/OND 
Veterans and their families. Section 304 of the law includes a 
requirement that VA provide services to certain immediate family 
members to assist in the recovery of eligible Veterans who have 
incurred injury or illness during deployment.
    VA has a robust system in place to provide transition assistance 
and care management for wounded, ill and injured OEF/OIF/OND Veterans. 
Each VA medical center has an OEF/OIF/OND Care Management team that is 
highly experienced and specially trained in the needs of returning 
combat Servicemembers. These teams coordinate patient care activities 
and ensure that eligible Servicemembers and Veterans are receiving 
patient-centered, integrated care and benefits. OEF/OIF/OND clinical 
case managers screen all returning combat Veterans to identify Veterans 
who may be in need of case management services so VA can intervene 
early and provide assistance before the Veteran is in crisis. In 
addition to identifying prevalent medical and mental health issues 
related to deployment, this screening identifies known risk factors for 
psychosocial issues such as homelessness, unemployment, family 
problems, and substance abuse. Severely ill or injured Servicemembers 
and Veterans are provided a case manager and other OEF/OIF/OND 
Servicemembers and Veterans are assigned a case manager as indicated by 
a positive screening assessment, or upon request. Case management needs 
are identified early, a plan of care is developed, and follow-up is 
provided as long as needed. OEF/OIF/OND case managers are experts at 
identifying and accessing resources within the VA health care system 
and the local community to help Veterans recover from their injuries 
and readjust to civilian life. The OEF/OIF/OND case managers are well 
positioned to offer support and assistance to eligible families in need 
of mental health services as well.
    VA is striving to improve these services. Additional training was 
provided in January, February, and March 2012 for case managers to 
improve screening. The goal is that while screening Veterans for 
psychosocial risk factors, the OEF/OIF/OND case management team will 
ask the Veteran questions regarding mental health, substance abuse or 
other psychosocial issues the Veteran is experiencing associated with 
immediate family members.
    VA is also working with the Department of Health and Human 
Services, Substance Abuse and Mental Health Services Administration 
(SAMHSA) to develop training for use of their mental health provider 
locator, available on the SAMHSA Web site. Training is available for 
OEF/OIF/OND case managers who work with family members to assist them 
in identifying and accessing mental health and community resources for 
families and children. VA staff will receive training on SAMHSA's 
substance use provider locator no later than June 30, 2012.
    A Caregiver Peer Mentoring Support program in which new caregivers 
are matched with experienced peers for support, guidance, and the 
sharing of experiences following similar paths in their caregiving 
journey was launched in January of 2012. Caregivers interested in being 
mentors are registered as volunteers at their local VA medical center 
and complete an orientation program with the Caregiver Support Program. 
After orientation, caregiver mentors are matched with an appropriate 
caregiver with the expectation that they will contact each other 
regularly to discuss issues, provide support, and solve problems 
together. Mentors will receive ongoing support from the Caregiver 
Support Program, including monthly calls with all of the mentors 
participating in the program. The first three peer mentors have been 
trained and are in the process of being matched.
    Caregiver training and education are important components of VA's 
Caregiver Support Program. Family caregivers of eligible seriously 
injured Veterans are required to complete a Core Curriculum training 
program prior to approval for the Program of Comprehensive Assistance 
for Family Caregivers, which provides additional services and benefits 
to those eligible, including, for designated and approved Primary 
Family Caregivers, a stipend and CHAMPVA coverage (if the Primary 
Family Caregiver is not entitled to care or services under a health-
plan contract (as defined)). The Core Curriculum is designed not only 
to ensure the proper care of the Veteran, but also to support and 
minimize the physical and mental health consequences of long-term care 
giving on the caregiver and other family members. VA has contracted 
with Easter Seals to develop a comprehensive caregiver training 
curriculum to address these needs. The curriculum is offered in three 
formats: self-instruction with a workbook and CD/DVD, Web-based online 
course, or a classroom setting. The caregiver may choose the option 
which best meets their needs and learning style. As of March 21, 2012, 
a total of 4,096 family caregivers have completed the training.
    In addition to the services provided by the OEF/OIF/OND care 
management teams as discussed earlier, there were a variety of family 
programs authorized before the passage of P.L. 111-163 and available 
through VHA's Mental Health Services. For eligible family members these 
include:

    <bullet>  Family consultation, family education and family psycho 
education for Veterans with serious mental illness;
    <bullet>  Family education and training, brief problem-focused 
consultations, more intensive family psycho education, and marriage and 
family counseling;
    <bullet>  The Support and Family Education Program (SAFE), which is 
an 18 session workshop for families of Veterans living with PTSD or 
serious mental illness;
    <bullet>  The National Alliance on Mental Illness (NAMI) Family-to-
Family Education Program (FFEP), a 12-week program developed by NAMI 
and taught by trained family members (peers);
    <bullet>  Talk, Listen, Connect: Deployment, Homecoming, Changes, 
which is a joint VA-Department of Defense (DoD) and Sesame Street 
Workshop bilingual educational outreach initiative; and
    <bullet>  Integrative Behavioral Couples Therapy (IBCT) for 
returning Servicemembers and their partners.

    Although all of these services are currently being provided, 
availability varies across the VA health care system. In December, 
2011, VA sent a memorandum to the field reminding facilities that these 
services had been authorized and should be provided on an ongoing 
basis. Since sending the memorandum to the field, VA has provided 
information on Veterans Integrated Service Networks (VISN) Mental 
Health Lead calls and All Staff Mental Health calls. Individual 
facility and VISN consultation has been provided for several sites. VA 
will continue to provide assistance until these services are fully 
available at all locations.
    VA has authority to enter into contracts to provide mental health 
services to Veterans who are remote from VA services. In the absence of 
accessible peer outreach services, peer support services, and 
readjustment counseling services, VISNs will utilize these contracting 
options and explore alternative opportunities in surrounding 
communities, utilize telehealth options, or encourage the use of online 
applications and options. Beginning with the memorandum to the field 
cited above, VA has continued to send reminders to VISN leadership 
about the need to identify and utilize these options on an ongoing 
basis. VA will also add this item to the Mental Health Operations Check 
List by the end of April 2012. VA will assess the local need for these 
contracts in light of the plans that are in place, and will identify 
any additional needs through site visits this year. All sites will be 
visited by the end of fiscal year (FY) 2012. Technical assistance will 
be provided to those sites needing to develop contracts.
    VA is working with SAMHSA to identify community-based referrals, 
resources, and options for Veterans and family members to access these 
referral services. Developing system-wide solutions to this issue has 
been difficult, but SAMHSA is building a Web-based resource directory 
populated with available options for use by OEF/OIF/OND coordinators, 
social work staff, and other VA providers to ensure that appropriate 
referrals for care are made. VA will receive a progress report on this 
project by June 30, 2012.
    VA has solicited for a national contract with a not-for-profit 
mental health organization to train Veterans to provide peer outreach 
and peer support services. VA-contracted community mental health 
providers that employ Veterans providing peer outreach and peer support 
services will also require training of those peer Veterans. Vet Centers 
provide their own staff training on peer-related issues and will not be 
included in this contract. The completion of the bidding and award 
process is expected by May 30, 2012.
    For contracted community mental health care providers, Web-based 
training (such as the Post-Traumatic Stress Disorder 101 series) 
currently exists and will be augmented by training on best mental 
health care practices developed by the Department of Defense (DoD) 
Center for Deployment Psychology. In addition, training on military 
culture is being developed as part of a joint effort between the DoD 
Center for Deployment Psychology and VHA. Training in best mental 
health care practices will be provided as developed throughout FY 2012, 
with completion anticipated by the end of the fiscal year.
    As part of the implementation plan of Section 304, VA's Planning 
and System Support Group has created VISN-level maps that identify the 
location of enrolled and non-enrolled OEF/OIF/OND Veterans and their 
travel distance to existing VA medical centers, Community Based 
Outpatient Clinics, and Vet Centers. These maps can be used by VISNs 
for planning purposes. Maps and directions for their use have been 
disseminated to the field and are currently available for use.
    The DoD Office of Reserve Affairs is also creating a list of 
current National Guard/Reserve members who are nearing the end of an 
active duty phase to provide outreach to them and their families about 
services. This is a collaborative effort with the VA as part of the 
Section 304 implementation work group. Information is still being 
collected by the National Guard and Reserve Offices for this task. VA 
is continuing to discuss and refine the details of this item with the 
Office of Reserve Affairs during regular meetings in which VA and DoD 
work on implementation of Section 304.
Section 401
    Section 401 of Public Law 111-163 authorizes Readjustment 
Counseling Service (RCS) to expand Vet Center eligibility to include 
members of the armed forces, including members of the National Guard or 
Reserve Forces, who served in OEF/OIF/OND. This authority provides 
eligible Servicemembers and their families access to safe and 
confidential readjustment counseling services at any of the 300 Vet 
Centers and 70 Mobile Vet Centers located in all 50 states, the 
District of Columbia, Puerto Rico, Guam, and American Samoa. VA 
supports this expansion of Vet Center Services.
    Section 401 requires that this be a joint rulemaking between VA and 
DoD. VA worked with DoD to draft the proposed rule, which was published 
in the Federal Register on March 13, 2012. The public comment period 
will end on May 14, 2012. After the comment period closes, VA and DoD 
will promptly draft a final rule, to include responses to all comments 
and revisions as appropriate. The final rule will be effective 30 days 
after it has been published in the Federal Register.
    VA is ready to implement the program as soon as the final rule is 
published. At that time, VA will launch an extensive outreach program 
to inform eligible Servicemembers about the expansion of Vet Center 
services. VA will monitor personnel and resources requirements for the 
program over time, and will adjust support accordingly once the level 
of Servicemember participation is determined.

                                 <all>

</pre></body></html>
